<html>
<title> - HEARING ON THE OFFICE FOR DOMESTIC PREPAREDNESS FIRST RESPONDER ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                  THE OFFICE FOR DOMESTIC PREPAREDNESS
                   FIRST RESPONDER ASSISTANCE PROGRAM

=======================================================================

                                HEARING

                                 of the

          SUBCOMMITTEE ON EMERGENCY PREPAREDNESS AND RESPONSE

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2004

                               __________

                           Serial No. 108-46

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-023                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Lamar S. Smith, Texas                York
Curt Weldon, Pennsylvania            Peter A. DeFazio, Oregon
Christopher Shays, Connecticut       Nita M. Lowey, New York
Porter J. Goss, Florida              Robert E. Andrews, New Jersey
Dave Camp, Michigan                  Eleanor Holmes Norton, District of 
Lincoln Diaz-Balart, Florida         Columbia
Bob Goodlatte, Virginia              Zoe Lofgren, California
Ernest J. Istook, Jr., Oklahoma      Karen McCarthy, Missouri
Peter T. King, New York              Sheila Jackson-Lee, Texas
John Linder, Georgia                 Bill Pascrell, Jr., North Carolina
John B. Shadegg, Arizona             Donna M. Christensen, U.S. Virgin 
Mark E. Souder, Indiana              Islands
Mac Thornberry, Texas                Bob Etheridge, North Carolina
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York            Ben Chandler, Kentucky

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

          Subcommittee on Emergency Preparedness and Response

                    John Shadegg, Arizona, Chairman

Curt Weldon, Pennsylvania, Vice      Bennie G. Thompson, Mississippi
Chairman                             Jane Harman, California
W.J. ``Billy'' Tauzin, Louisiana     Benjamin L. Cardin, Maryland
Christopher Shays, Connecticut       Peter A. DeFazio, Oregon
Dave Camp, Michigan                  Nita M. Lowey, New York
Lincoln Diaz-Balart, Florida         Eleanor Holmes Norton, District of 
Peter King, New York                 Columbia
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
Mac Thornberry, Texas                Donna M. Christensen, U.S. Virgin 
Jim Gibbons, Nevada                  Islands
Kay Granger, Texas                   Bob Etheridge, North Carolina
Pete Sessions, Texas                 Ken Lucas, Kentucky
Christopher Cox, California, Ex      Jim Turner, Texas, Ex Officio
Officio

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Shadegg, a Representative in Congress From the 
  State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness and Response......................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Subcommittee 
  on Emergency Preparedness and Response.........................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     4
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................     6
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    30
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    24
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State Washington...........................................    31
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    34
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York..........................................    28
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    38
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................    36

                               WITNESSES

The Honorable C. Suzanne Mencer, Director Preparednsess, 
  Department of Homeland Security
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Mr. Dennis R. Schrader, Director, Governor's Office of Homeland 
  Scurity, State of Maryland
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                APPENDIX
                        Questions for the Record

The Honorable C. Suzanne Mencer Responses:
  Questions From the Honorable Christopher Cox...................    50
  Questions From the Honorable John Shadegg......................    43
  Questions From the Honorable Bennie G. Thompson................    56
  Questions From the Honorable Curt Weldon.......................    44

 
                   HEARING ON THE OFFICE FOR DOMESTIC
                      PREPAREDNESS FIRST RESPONDER
                           ASSISTANCE PROGRAM

                              ----------                              


                       Wednesday, April 28, 2004

                          House of Representatives,
             Subcommittee on Emergency Preparedness
                                      and Response,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2212, Rayburn House Office Building, Hon. John Shadegg 
[chairman of the subcommittee] presiding.
    Present: Representatives Shadegg, Weldon, Camp, Diaz-
Balart, King, Dunn, Cox, Thompson, DeFazio, Norton, Pascrell, 
Christensen, Etheridge, Lucas, Turner, and Souder.
    Mr. Shadegg. [Presiding.] Good morning. The committee will 
come to order. And I will begin by asking unanimous consent 
that the opening statements be limited to those of the chairman 
and ranking members of the subcommittee and of the full 
committee.
    Without objection, so ordered.
    Today's hearing continues our ongoing effort at first 
responder funding. That issue is extremely important to the 
American people.
    And I would begin by noting that yesterday we released this 
report. And I want to begin by thanking my own personal staff, 
as well as the committee staff, for its thorough examination of 
this issue, which is of primary concern to the American people 
with regard to the work of the Department of Homeland Security 
and our efforts to support first homeland responders all over 
the country.
    As a result of the tragic events of September 11, 2001, 
Congress responded by appropriating over $6 billion in funding 
for first responders through the State Homeland Security Grant 
Program and the Urban Areas Security Initiative. By comparison, 
the 2001 funding for these kinds of activities was roughly $121 
million.
    That is the equivalent of moving from a drip out of a 
faucet to a blast from a fire hose. In spending terms, it is an 
increase of over 2,000 percent.
    Right or wrong, this funding has become the most tangible 
measuring stick for Congress when discussing progress on 
homeland security. That being the case, we need to figure out 
how and where this money is being used and to make sure that it 
is indeed the appropriate evaluation of whether our homeland is 
secure because we may commit an additional $2.5 billion this 
year in this current budget cycle without knowing what the 
previous money has gotten us--in essence, to figure out where 
we have been, so that we know where to go.
    Toward that end, the Select Committee staff, under the 
direction of Chairman Cox, and this subcommittee has examined 
where those funds have gone and produced the report that I just 
showed you. What we learned is that while much of the homeland 
security grant money and urban area grant money has been 
allocated--meaning that they have been directed to the 
counties, cities and towns--very little money has actually been 
drawn down or spent.
    Let us take, for example, fiscal year 2003. In fiscal year 
2003, Congress had a regular and supplemental appropriation for 
homeland security totaling over $2.6 billion.
    As of last week, only $246 million of that money had been 
spent or roughly 15 percent. That is a pretty amazing number.
    To the extent, however, that cities are taking their time 
to figure out what to purchase and how to spend this money and 
to ensure that it enhances the protection of critical assets 
and the public at large, that is not a bad thing. It means they 
are doing their jobs thoughtfully and carefully.
    And we have heard that that is one of the reasons for the 
delay in spending the money; that is, that is that they are 
going slowly at the actual spending level. But to the extent 
that this delay is because of bureaucracy within the city 
councils or county boards or at the state level or is a result 
of bureaucracy within the Department of Homeland Security, not 
only am I concerned, but we should all be concerned.
    I also continue to be concerned about misappropriation of 
homeland security funding. Anecdotes from public officials in 
our report--again, the report I just showed you--like the one 
from the State of Washington noting that ``specialized 
equipment will go to waste, sitting on a shelf collecting dust, 
because we are not in a high-threat area,'' are very 
disturbing.
    And they point out the important work of this subcommittee 
and the full committee in moving toward a risk-based allocation 
of funds. There is plenty of blame to go around. But I hope we 
are not in the blame business.
    I hope we are in the business of looking forward to improve 
upon the system to better protect the people of America. 
Congress is responsible for coming up with a grant formula that 
does not take into account risk, nor does it provide guidance 
to the states as to what the appropriate level of preparedness 
is.
    We are fixing that through the legislation we have passed 
through this subcommittee, the Faster and Smarter Funding for 
First Responders Act. In addition, ODP can do a better job.
    It is new to the scene, in terms of being responsible for 
our nation's preparedness for terrorism. And one could argue 
that FEMA has vastly more experience in emergency management, 
which now seems to be devoted solely to natural disasters.
    Nevertheless, decisonmaking can be improved. And 
communication and guidance can be more crisp.
    I will not go into the computer glitches which we have 
experienced. But I believe that problem has been corrected.
    States and counties all need to do a better job in terms of 
planning and coordinating and ensuring that these essential 
funds are spent appropriately and quickly to best enhance the 
security of our nation. I have been astounded by the confusion 
and misinformation as to how the homeland security grant 
process works and why the money has not been spent.
    My hope is that, through our committee report and through 
the testimony we will receive today from our witnesses, we can 
clear the air and focus on the actual problems facing us as we 
go forward.
    I appreciate the presence of our witnesses. And I would now 
like to call on the ranking member of the subcommittee, the 
gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Director Mercer, 
welcome and thank you for appearing before the subcommittee 
today to provide details on your budget request for fiscal year 
2005.
    As you are aware, the full Select Committee recently passed 
legislation that would significantly reform the Terrorism 
Preparedness Grant Program administered by your office. We 
passed this legislation because we believe that our current 
system for funding first responders does not work.
    We spend an arbitrary amount of money each year. These 
funds are not distributed where they are needed the most. And 
they have no idea whether we are building an effective 
nationwide capability to respond to acts of terror.
    And unfortunately, your budget proposal for 2005 simply 
continues the broken practices of the past. Once again, your 
budget is not based on any true assessment of the preparedness 
needs of our states, cities and rural communities.
    Once again, your budget seeks to limit the use of fire 
grant funds to programs related to terrorism preparedness. And 
once again, you ignore the most critical need of our emergency 
management community by severely limiting the amount of 
emergency management performance grant funds that can be used 
for personnel.
    Most disturbing, however, is the fact that your budget cuts 
first responder grant programs by almost $700 million. If DHS 
has no way of measuring the nation's progress toward closing 
the security gaps, either as a whole or by a state by state 
basis, then what is your basis for the proposed reduction?
    We cannot fight and win the war on terrorism if our first 
responders lack the equipment, training and planning that they 
need to ensure the safety of their communities. Let me 
highlight some examples from the President's budget that 
demonstrate the misguided approach of this administration.
    First, the budget reduces the Emergency Management 
Performance Grant Program by $10 million from the fiscal year 
2004 level. In addition, the administration proposes that only 
25 percent of these grant funds will be available to support 
state and local emergency management personnel salaries.
    This program is the principal source of funding for state 
and local emergency management agencies, your partners in all 
hazardous preparedness. A March 2002 survey by the National 
Emergency Management Association found that an additional 5,212 
local emergency management positions are needed, with 3,960 of 
those positions being full-time directors needed to manage the 
program.
    How do you propose to respond to and recover from major 
disasters or even conduct additional training and exercise when 
your budget will eliminate many of your state and local 
partners?
    I have a number of other questions that I will go, but I 
want you to listen to a couple of the others I have for you.
    How does the administration expect the fire community to 
prepare for and respond to terrorism when it is abundantly 
clear that many fire departments lack the training and 
equipment to respond to even the most basic emergency 
situation?
    How does the administration expect our communities to 
prepare for and respond to acts of terrorism when they cannot 
even afford to pay for a full-time emergency manager?
    And I want you to think about rural areas as you deal with 
the answers. Some of us represent significant rural areas. And 
there is a real concern being voiced by our constituents that 
they are being left out.
    So I look forward to your testimony. Thank you.
    Mr. Shadegg. Thank the gentleman.
    The chair would now recognize the chairman of the full 
committee, the gentleman from California, Mr. Cox, for an 
opening statement.
    Mr. Cox. Thank you, Mr. Chairman. I want to welcome our 
witnesses today and thank you very much for the hard work that 
you are doing on the important mission of preparing us for what 
might happen in our future that has already happened to us in 
our past.
    I want to thank Chairman Shadegg and all the members of 
this subcommittee for the leadership that each of you has shown 
in helping this vital community of first responders build new 
capabilities.
    Our objective, on behalf of the American people, is to 
bring about a fundamental change in the way that we allocate 
first responder monies to fight the war on terrorism. The 
commitment by President Bush and the
    Congress to our first responders is unshakably strong and 
will remain so.
    We have increased funding to assist first responder 
terrorism preparedness by an astounding 2,000 percent since 
2001. The federal government-wide commitment has totaled over 
$28 billion since 2001.
    That includes the President's Fiscal Year 2005 budget. And 
the Department of Homeland Security and its predecessor 
agencies have committed almost $14.6 billion since 2001.
    Our concerns--and I believe the department's as well--are 
that federal dollars appropriated by Congress and granted by 
DHS are nonetheless not reaching our local first responders 
quickly enough. In fact, of $6.3 billion granted since 2001, 
roughly $5.2 billion in DHS grant money remains in the 
administrative pipeline, waiting to be used by first 
responders.
    A separate distinct problem is that federal dollars are not 
necessarily going to those first responders who need it the 
most and not nearly often enough are the allocations based upon 
risk. Over the past several months, as the chairman and ranking 
member have mentioned, committee staff obtained and examined 
grant allocation expenditure data from ODP and from all 50 
states for the largest ODP first responder terrorism grant 
programs in 2003.
    State formula grants in 2003 were a little over $2 billion. 
The high-threat, urban area grants were $596 million.
    What we found is that ODP has done a good job of obligating 
the grant funds quickly. In 2003, ODP announced awards to 
states within 15 days of enactment of its appropriations. And 
it sent out obligation letters within 3 months.
    Our concerns at the federal level, therefore, are 
essentially the basis for allocating these monies; that the 
basis is not, with some exceptions, risk or need. Rather, these 
dollars are being allocated in accordance with a 
congressionally mandated, arbitrary political formula that, 
among other things, gave every political jurisdiction in 
America with two senators a minimum of $17.5 million in fiscal 
year 2003.
    To your credit, you, Secretary Ridge and President Bush 
have requested this formula be changed. In both the fiscal year 
2005 budget request and through your testimony here today, you 
have asked that the secretary be provided increased 
flexibility. And it has been the Homeland Security Department's 
longstanding position that the Patriot Act formula, of which I 
have just complained, be changed.
    H.R. 3266, the Faster and Smarter Funding for First 
Responders Act, which passed this committee unanimously last 
month, gives the secretary a clear mandate to prioritize risk 
in the grant distribution process and to make sure that there 
are clear and measurable federal preparedness goals.
    It will ensure that we have minimum essential capabilities 
established to guide communities, as Mr. Thompson has 
explained, so that as we use our funds, we know what we are 
building. H.R. 3266 continues a theme that has been the focus 
of this committee since its inception: we must strengthen DHS' 
information analysis and risk assessment efforts. And we must 
use this information to allocate our resources more 
effectively.
    We also must do a better job of sharing this threat and 
vulnerability information with state and local officials so 
that they too can do a better job in allocating these 
resources. Our staff analysis found that almost one-third of 
the states simply followed the flawed federal model when 
distributing fiscal year 2003 ODP grant funds to their 
localities, resulting in more than $600 million being 
distributed, regardless of risk or need, in that one year 
alone.
    And most of the States that considered some elements of 
risk or need did not do so in any standard or significant way. 
By improving the flow of threat and risk-based information to 
our first responders, we will materially improve their ability 
to prevent, prepare for and respond to a terrorist attack.
    By setting clear federal preparedness goals, we will begin 
to build measurable and sustainable capabilities. Our 
investment in the first responder community must be strategic. 
And our priorities must be guided by a comprehensive threat 
assessment.
    The time is now to develop and implement a clear national 
strategy for homeland security that will allow us to stop 
wasteful and unfocused spending and to permit the measurement 
of progress toward concrete goals that truly make this country 
safer. H.R. 3266 will help get us there.
    And I hope that this bill will be brought to the floor of 
the House for a vote soon. We expect that will be in either 
June or July because there are time-limited referrals to other 
committees that expire on June 7.
    I also hope that, under Ms. Mencer's inspired leadership, 
ODP will not wait for such legislation, but will move to adopt 
administratively, to the fullest extent legally possible, the 
reforms that this committee has been calling for.
    I look forward to hearing from our state partners and from 
the department on their ongoing efforts to effectively manage 
the grant funding process. The committee and the American 
people are grateful for the work that each of you does to 
support the men and women on the front lines of our war on 
terrorism.
    I yield back, Mr. Chairman.
    Mr. Shadegg. I thank the gentleman.
    The chair would now recognize the ranking member of the 
full committee, the gentleman from Texas, Mr. Turner, for an 
opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    Director Mencer and Mr. Schrader, thank you for being here 
with us today. As you can tell, we have numerous concerns about 
the operation of the grant programs, and how they relate to our 
states and local governments.
    As the chairman mentioned, we have legislation that we 
believe will improve that process. But frankly, we also believe 
that the department could do much on its own to move these 
suggestions forward.
    We know our current system of funding first responders does 
not work. One reason that we describe in our legislation is 
that we do not have any determination as to what the essential 
capabilities for terrorism preparedness should be.
    We have no basis for determining these capabilities because 
we do not have a clear national assessment of threat and 
vulnerability to know what level of preparedness, what kind of 
training, what kind of equipment should really be purchased.
    So we are very concerned that we need to move forward much 
quicker than we have been in trying to build an effective 
nationwide capability. We have proposed, in our legislation, 
that these changes be made. And as I said, I think it is 
important for the department to heed those suggestions in 
advance of the passage of the bill.
    It is frustrating to many of us to see that we are spending 
millions of dollars and yet we are not sure whether those 
dollars are being spent building the right capabilities and 
infrastructure. In testimony earlier this year, Secretary Ridge 
made a comment that the department was having difficulty moving 
funds through the pipeline, and that this fact justified 
cutting back on funding for our first responders.
    And as Ranking Member Thompson suggested, that is a concern 
that many of us have, that you have cut back on the funding in 
the budget request that you have submitted. We do not believe 
it is justified.
    We believe the needs out there are great. But we do believe 
that the money needs to be spent much more wisely and much 
smarter.
    I would also like to express some concern in the 
President's budget request on some other issues. There is 
obviously a continuing problem out there in achieving 
communications interoperability.
    The department's statement of requirements, which was 
announced Monday, is a critical first step. But clearly, it is 
only a beginning, and not the end of the process.
    It comes 8 years after the final report of the Public 
Safety Wireless Advisory Committee and 2 years after the 
initiation of Project SAFECOM. I look forward to hearing how 
ODP is incorporating the guidance from Project SAFECOM into its 
grant programs, as well as receiving explanation as to why the 
administration has requested no funds for interoperability 
grants in fiscal year 2005, either within DHS or in any other 
federal agency.
    Additionally, the administration's budget request is 
unclear on how other programs, some of which are new to ODP, 
will be administered. The budget includes $46 million for port 
security grants, which is about $500 million short of what the 
Coast Guard says they need for initial security improvements at 
our ports.
    Our country's commercial transportation systems, such as 
commuter rail, clearly are vulnerable, which was underscored, I 
think, by the recent attack in Madrid. And despite those 
vulnerabilities, the department has provided only $115 million 
in grants from the Urban Area Security Initiative Program since 
September 11 to secure transit systems, the majority of which 
have gone to five metropolitan areas.
    There is no specific funding in your budget this year to 
improve security for rail and other public transportation 
systems. That is somewhat surprising, in light of the fact that 
the American Public Transportation Association estimates that 
there are $6 billion in unmet security needs nationwide for 
public transportation.
    So we are interested in hearing any details that you may 
have about your plans to improve the security of commercial 
transportation systems. And finally, as Ranking Member Thompson 
mentioned, there are cuts in funding for the fire grant program 
and the emergency management performance grants.
    Both requests also contain language that would limit the 
ability of the states to use these funds to meet a full range 
of preparedness needs. In the case of the emergency management 
performance grant, the proposed budget would, by one estimate, 
lead to a 60 percent cut of state and local emergency 
personnel, exactly at a time when we are asking our state and 
local governments to take a more active role in emergency 
planning and response activities.
    These are just a few of our concerns. We look forward to 
hearing comments from both of you about these issues and any 
others that you may choose to bring before us.
    Thank you very much, Mr. Chairman.
    Mr. Shadegg. I thank the gentleman. As members of the 
committee are aware, we are in essence a homeless committee. We 
have to borrow committee rooms.
    We were just advised yesterday that the Armed Services 
Committee, whose room we are borrowing today, needs this room 
this afternoon. So we will be required to vacate no later than 
roughly 12:30 so that they can occupy it. So we will need to 
move crisply through our questioning.
    With that, let me move forward to introduce our first 
witness, the Honorable Suzanne Mencer, the executive director 
of the newly formed Office of State and Local Government 
Coordination and Response. Ms. Mencer is formerly the executive 
director of public safety for the State of Colorado.
    Amongst many of her qualifications, she is a member of the 
National Task Force on Interoperability and a member of the 
Society of Former Special Agents of the Federal Bureau of 
Investigation.
    Ms. Mencer, please if you would, we have your full 
statement before us and it is in the record. We would 
appreciate it if you could summarize the salient points for the 
committee.

STATEMENT OF THE HONORABLE C. SUZANNE MENCER, DIRECTOR, OFFICE 
   FOR DOMESTIC PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Ms. Mencer. Thank you very much, Chairman Shadegg,
    Congressman Thompson.
    Mr. Shadegg. You may want to pull that microphone a little 
bit closer.
    Ms. Mencer. My name is Sue Mencer. And I serve as the 
director of the Department of Homeland Security's Office for 
Domestic Preparedness.
    On behalf of Secretary Ridge, it is my pleasure to appear 
before you today to discuss the current status of the status of 
the Office for Domestic Preparedness and other issues of 
critical importance.
    ODP is the federal government's principal agency 
responsible for preparing our nation against terrorism by 
assisting states, local jurisdictions, regional authorities and 
tribal governments in building their capacity to prepare for, 
prevent and respond to acts of terrorism. Since its creation, 
ODP has provided assistance to all 50 states, the District of 
Columbia, the Commonwealth of Puerto Rico and the U.S. 
territories.
    ODP has trained 325,000 emergency responders from more than 
5,000 jurisdictions and conducted more than 300 exercises. By 
the end of fiscal year 2004, ODP will have provided more than 
$8.1 billion in assistance and support.
    As of today, 46 of the 56 states and territories have 
received their fiscal year 2004 funding under the Homeland 
Security Grant Program. This includes funds to support 
statewide preparedness efforts under the State Homeland 
Security Grant Program, the Law Enforcement Terrorism 
Prevention Program and Citizen Corps. These awards represent 
over $1.9 billion in direct assistance. In total, $2.2 billion 
will be provided under these initiatives.
    Further, of the 50 urban areas designated under the fiscal 
year 2004 Urban Areas Security Initiative--or UASI program--33 
urban areas have been funded so far. This represents $467 
million in support to high-density population centers with 
identifiable threats and critical infrastructure.
    In total over $670 million will be provided to these areas. 
In addition, the department has identified 30 of the nation's 
most used urban transit systems and will provide $49 million to 
enhance the overall security of these systems. To date, 21 of 
these transit systems have received their fiscal year 2004 
funds.
    Much of how the states and territories will distribute and 
utilize Homeland Security Grant Program funds will be 
influenced by the results of the state homeland security 
assessments and strategies. As you know, these strategies and 
assessments were submitted to ODP on January 31, 2004.
    These assessments and strategies are important to both the 
states and to the federal government. They provide information 
regarding vulnerabilities, capabilities and future requirements 
and each state's preparedness goals and objectives.
    They provide the states a road map to how current and 
future funding, exercise, training and other preparedness 
resources should be directed and targeted. And they provide the 
federal government with a better understanding of needs and 
capabilities.
    All assessments and strategies have been received, have 
been reviewed or currently are under review by an intra-DHS 
review board. Fifty-one have been approved by the department.
    Recently, the department's inspector general released a 
report titled ``An Audit of Distributing and Spending First 
Responder Grant Funds.'' That report examines how ODP processed 
and awarded first responder grant funds during fiscal years 
2002 and 2003.
    It also examined how several of the states, once awards 
have been received, obligate and distribute those funds. We at 
ODP welcomed the inspector general's scrutiny and see this 
report as an opportunity to validate those things we are doing 
well and to identify and act upon those things we need to do 
better.
    With permission, Mr. Chairman, I would like to submit a 
copy of the report for inclusion in the record.\1\
---------------------------------------------------------------------------
    \1\ Visit the OIG web sit at www.dhs.gov., for copies of Department 
of Homeland Security, Office of Inspector General, ``An Audit of 
Distributing and Spending ``First Responder'' Grant Funds'' Office of 
Audits OIG-04-15 March 2004.
---------------------------------------------------------------------------
    Mr. Shadegg. Without objection, so ordered.
    Ms. Mencer. The inspector general concluded that ODP has 
been successful in the development and management of its grant 
programs and that ODP has assessed, processed and awarded its 
grants in a timely and effective manner. The inspector general 
also concluded that there are ways in which ODP and states and 
local jurisdictions could better distribute, dedicate, monitor 
and track homeland security funds.
    Most important, inspector general concluded--and we at ODP 
agree--that it is more desirable for states to distribute funds 
wisely and prudently than to distribute funds in haste. The 
inspector general's report concluded that although ODP has been 
able to distribute funds to states in a timely manner, there 
were some impediments that slowed the distribution of funds 
from states to local jurisdiction.
    These impediments did not exist in every state, nor in 
every jurisdiction. And, as the inspector general noted, some 
impediments are unavoidable, some can be corrected.
    As the former director of public safety for Colorado and 
the homeland security adviser to Governor Owens, I can tell you 
without hesitation that the job of distributing these funds is 
a challenge and not without difficulties.
    On March 15, 2004, Secretary Ridge announced the creation 
of the Homeland Security Funding Task Force. This task force is 
comprised of several governors, mayors, county executives and a 
representative of tribal governments and is examining DHS' 
funding process for state and local assistance to ensure that 
DHS funds to the nation's first responders move quickly and 
efficiently.
    It will also identify best practices in an effort to offer 
solutions to both the department and state and local 
jurisdictions. The information provided by this task force will 
assist DHS and states and localities to do a better job. This 
task force, Mr. Chairman, will provide a report to the 
secretary by the end of June, which we will share with 
Congress.
    ODP initiated many improvements prior to the release of the 
inspector general's report. For fiscal year 2004, ODP is 
implementing new reporting and monitoring guidelines. These new 
procedures will enable ODP to better track each state's 
progress in allocating funds and meeting the objectives 
outlined in their 2003 state strategies and assessments. For 
fiscal year 2005, ODP will establish a dedicated audit team in 
order to more closely audit grant expenditures and better 
ensure compliance with program requirements.
    ODP has also greatly improved its communications with state 
and local officials to assist them to better understand 
requirements and better plan for the use and allocation of 
program funds.
    We have made many efforts to improve and to better 
communicate with our states and our territories. These efforts 
are in addition to ODP's existing efforts to provide customer 
service, including an ODP help line and technical assistance 
and monitoring visits by ODP staff to state and local 
jurisdictions. We have, in this last year, made over 300 site 
visits to states and localities.
    I am speeding this up for you.
    Mr. Shadegg. Thank you.
    Ms. Mencer. You are welcome. As you know, as Chairman Cox 
indicated earlier, the secretary has stated that he would like 
to see a change in the homeland security grant funding formula. 
It does not mean, however, that we are not recommending that 
these funds be eliminated, a baseline funding to all states.
    Secretary Ridge has consistently stated that a minimum 
amount of funds must be provided to all states and territories. 
And for the nation to be secure, all states and territories 
must have the resources to address their particular and unique 
security needs. I would like to speak a little about the 
consolidation of ODP and state and local government. As you 
know, that was proposed. And we have the 60-day review period 
by Congress is over. So we are looking at doing that 
consolidation. And that should be announced by the secretary 
any day now. We believe that is the best and most efficient use 
and way for the federal government to address the needs of the 
states, by having a one-stop shop for the states to go to. And 
I can tell you, as a former homeland security director, that 
would be very helpful to have one place to go for grants 
concerning preparedness issues. This is also supported by the 
inspector general's report, which I mentioned earlier. As to 
the issue--and my last point--the issue of how to measure 
capabilities and performance and the states capabilities, HSPD-
8, the Homeland Security Presidential Directive-8, is a 
preparedness decision directive. This is one we have been 
tasked at ODP for this implementation. And it will, with our 
state and local partners and our federal government partners as 
well, establish preparedness goals for the states so they can 
measure their capability to deal with all disasters concerning 
man-made incidents, terrorism disasters and also natural 
disasters as well. So we are in the process now of implementing 
that. We had our first steering committee meeting last week. So 
with that, I think in the interest of time and at your 
direction, I will conclude my statement and be happy to answer 
any questions you may have.
    [The statement of Ms. Mencer follows:]

         Prepared Statement of the Honorable C. Suzanne Mencer

    Chairman Shadegg, Congressman Thompson, and Members of the 
subcommittee, my name is Sue Mencer, and I serve as Director of the 
Department of Homeland Security's (DHS) Office for Domestic 
Preparedness (ODP). On behalf of Secretary Ridge, it is my pleasure to 
appear before you today to discuss the current status of ODP and other 
issues of critical importance.
    On behalf of all of us at DHS, I want to thank you Mr. Chairman, 
and all the members of the Committee, for your ongoing support for the 
Department and for ODP. You and your colleagues have entrusted us with 
a great responsibility, and we are meeting that responsibility with the 
utmost diligence.
    As you are all aware, ODP is responsible for preparing our Nation 
against terrorism by assisting States, local jurisdictions, regional 
authorities, and tribal governments with building their capacity to 
prepare for, prevent, and respond to acts of terrorism. Through its 
programs and activities, ODP equips, trains, exercises, and supports 
State and local homeland security personnel--our nation's first 
responders--who may be called upon to prevent and respond to terrorist 
attacks.
    Mr. Chairman, ODP has established an outstanding track record of 
capacity building at the State, local, territorial, and tribal levels, 
by combining subject matter expertise, grant-making know-how, and 
establishing strong and long-standing ties to the nation's public 
safety community. Since its creation in 1998, ODP has provided 
assistance to all 50 States, the District of Columbia, the Commonwealth 
of Puerto Rico, and the U.S. territories. Through its programs and 
initiatives ODP has trained 325,000 emergency responders from more than 
5,000 jurisdictions and conducted more than 300 exercises. And, by the 
end of Fiscal Year 2004, ODP will have provided States and localities 
with more than $8.1 billion in assistance and direct support.
    Throughout its history ODP has strived to improve how it serves its 
State and local constituents. For example, in Fiscal Year 2003, 
application materials for the Department's State Homeland Security 
Grant Program--under both the Fiscal Year 2003 Omnibus Appropriations 
Bill, and the Fiscal Year 2003 Supplemental Appropriations Bill--were 
made available to the States within two weeks of those bills becoming 
law. Further, over 90 percent of the grants made under that program 
were awarded within 14 days of ODP receiving the grant applications.
    During Fiscal Year 2004, ODP's record of service to the nation's 
first responders continues. As of today, 46 of the 56 States and 
territories have received their Fiscal Year 2004 funding under the 
Homeland Security Grant Program. This includes funds to support State-
wide preparedness efforts under the State Homeland Security Grant 
Program, the Law Enforcement Terrorism Prevention Program, and the 
Citizen Corps Program. These awards represent over $1.9 Billion in 
direct assistance. In total, $2.2 Billion will be provided under this 
initiative.
    Further, 33 of the 50 urban areas designated under the Fiscal Year 
2004 Urban Areas Security Initiative (UASI program) have been awarded 
funding so far; the remaining are still under review. This represents 
$467 Million in support to high-density population centers with 
identifiable threats and critical infrastructure. In total over $670 
Million will be provided to these areas. In addition, the Department 
has identified 30 of the nation's most used urban transit systems and 
will provide $49 Million to enhance the overall security of these 
systems. To date, 21 of these transit systems have received their 
Fiscal Year 2004 funds.
    Much of how the States and territories will distribute and utilize 
Homeland Security Grant Program funds will be influenced by the results 
of the State Homeland Security Assessments and Strategies. As you know, 
each State, the District of Columbia, the Commonwealth of Puerto Rico, 
and the territories were required to submit their assessments and 
strategies by January 31, 2004.
    These assessments and strategies, Mr. Chairman, are critically 
important to both the States and the Federal Government. They provide a 
wealth of information regarding each State's vulnerabilities, 
capabilities, and future requirements, as well as each State's 
preparedness goals and objectives. They provide each State with a 
roadmap as to how current and future funding, exercise, training, and 
other preparedness resources should be directed and targeted, and they 
provide the Federal Government with a better understanding of needs and 
capabilities. I am happy to report that all assessments and strategies 
have been received and reviewed or currently are under review by an 
intra-DHS review board comprised of representatives from major 
Department components. Of those 56 strategies, 51 have been approved by 
the Department. The remaining five should be approved shortly.
    During Fiscal Year 2005, ODP will continue to provide States and 
localities with the resources they require to ensure the safety of the 
American public. The funds requested by the President for Fiscal Year 
2005 will allow ODP to continue to provide the training, equipment, 
exercises, technical assistance, and other support necessary to better 
prepare our communities.
    DHS's mission is critical, its responsibilities are great, and its 
programs and activities impact communities across the nation. We will 
strive to fulfill our mission and meet our responsibilities in an 
effective and efficient manner. And we will, to the best of our 
abilities, continue to identify where and how we can improve. Part of 
our responsibility, part of the Department's responsibility, Mr. 
Chairman, is the recognition that we can always improve what we do and 
how we do it. And we can never be too safe or too secure.
    To that end, the Department's Inspector General recently released a 
report titled ``An Audit of Distributing and Spending `First Responder' 
Grant Funds.'' That report examined how ODP processed and awarded first 
responder grant funds during Fiscal Years 2002 and 2003. It also 
examined how several of the States, once awards have been received, 
obligate and distribute those funds. We at ODP welcomed the Inspector 
General's scrutiny, and now that the report is complete, we see this as 
an opportunity to validate those things we are doing well, and to 
identify and act upon those things we need to do better. With your 
permission, Mr. Chairman, I would like to submit a copy of the report 
for inclusion in the record.
    Overall Mr. Chairman, the Inspector General concluded that ODP has 
been successful in the development and management of its grant 
programs, and that ODP has assessed, processed, and awarded its grants 
in a timely and effective manner. At the same time the Inspector 
General concluded that there are several ways in which ODP could better 
assist States and local communities in distributing and dedicating 
homeland security funds, as well as monitoring and tracking these funds 
once they have been awarded. The Inspector General concluded that 
various impediments to the timely distribution of funds at the State 
and local level should be addressed, and while some of these 
impediments may be unavoidable, others could be reduced. Most important 
the Inspector General concluded, and we at ODP agree, that it is more 
desirable for States to distribute funds wisely and prudently, than to 
distribute funds in haste.
    Among the report's recommendations were:
        <bullet> For ODP to institute more meaningful reporting by the 
        States so that ODP can track progress more accurately, both in 
        their distribution of funds and in building their preparedness 
        capabilities, and to better assist States when necessary.
        <bullet> For ODP to improve its communications with State and 
        local jurisdictions in order to keep them better informed as to 
        program requirements and opportunities for assistance.
        <bullet> For ODP to accelerate the development of federal 
        guidelines for first responder preparedness, including 
        capability levels, equipment, training, and exercises, in order 
        to enhance the ability of States and local jurisdictions to 
        develop preparedness strategies and target resources.
        <bullet> For ODP to work with State and local jurisdictions to 
        better identify impediments at the State and local levels to 
        the timely distribution of funds, identify ``best practices,'' 
        and make recommendations to overcome these impediments.
    I am happy to report, Mr. Chairman, that ODP, in consultation with 
the Secretary and other Department components, is already addressing 
many of these recommendations. For instance, for Fiscal Year 2004, ODP 
is implementing new reporting and monitoring guidelines. These new 
procedures will enable ODP to better track each State's progress in 
allocating funds and meeting the objectives outlined in their 2003 
State Strategies and Assessments. Further, prior to the start of Fiscal 
Year 2005, ODP will establish a Dedicated Audit Team in order to more 
closely audit grant expenditures and better ensure compliance with 
program requirements.
    Also during the past year, ODP has greatly improved its 
communications with State and local officials to assist them to better 
understand program requirements and better plan for the use and 
allocation of program funds. As an example, ODP, along with other 
Department components, participates in bi-weekly conference calls with 
the various State homeland security directors. These conference calls 
provide direct access among Federal and State representatives and 
facilitate the quick flow of information. Similarly, ODP, as part of 
its administration of the Fiscal Year 2003 UASI, instituted conference 
calls among ODP staff and mayors and other State and local officials 
representing the various urban areas comprising the UASI sites. Again 
the use of conference calls expedited and facilitated the exchange of 
information and ideas among the parties.
    Further Mr. Chairman, this past February, Secretary Ridge provided 
each State's governor with a report on homeland security funds awarded, 
obligated, and spent within the State. These reports are being updated 
on a regular basis. Keeping the governors informed in this manner has 
enhanced their ability to maintain oversight over these monies. These 
efforts are in addition to ODP's continuing efforts to provide customer 
service, including the ODP Helpline, and technical assistance and 
monitoring visits by ODP staff to State and local jurisdictions. Within 
the past six months, staff from ODP's State and Local Management 
Division, the ODP component responsible for the administration of the 
homeland security grant funds, have made 22 monitoring trips and, in 
the last 12 months, have made 300 technical assistance trips to State 
and local jurisdictions.
    ODP is also continuing its efforts to develop preparedness 
standards and to establish clear methods for assessing State and local 
preparedness levels and progress. As you will recall Mr. Chairman, on 
December 17, 2003, the President issued ``Homeland Security 
Presidential Directive (HSPD)-8.'' Through HSPD-8, the President tasked 
Secretary Ridge, in coordination with other Federal departments and 
State and local jurisdictions, to develop national preparedness goals, 
improve delivery of federal preparedness assistance to State and local 
jurisdictions, and strengthen the preparedness capabilities of Federal, 
State, territorial, tribal, and local governments. HSPD-8 is consistent 
with the broader goals and objectives established in the President's 
National Strategy for Homeland Security issued in July, 2002, which 
discussed the creation of a fully-integrated national emergency 
response capability. Inherent to the successful implementation of HSPD-
8 is the development of clear and measurable standards for State and 
local preparedness capabilities.
    The standards that will result from HSPD-8 implementation build on 
an existing body of standards and guidelines developed by ODP and other 
Federal agencies to guide and inform State and local preparedness 
efforts. Since its inception ODP has worked with Federal agencies and 
State and local jurisdictions to develop and disseminate information to 
State and local agencies to assist them in making more informed 
preparedness decisions, including capability assessments, preparedness 
planning and strategies, and choices relating to training, equipment, 
and exercises. Again, with your permission Mr. Chairman, I would like 
to submit for inclusion in the record, a summary of standards and 
guidelines issued by ODP over the last several years.
    Earlier this year, the Secretary delegated to ODP the 
responsibility for the implementation of HSPD-8. And ODP, together with 
Secretary Ridge, other Department components, Federal agencies, and 
State and local governments, firmly believe that the successful 
implementation of HSPD-8 is essential and critical to our Nation's 
ability to prevent, prepare for, and respond to acts of terrorism. In 
March, the Secretary approved these key items: first, a strategy for a 
better prepared America based on the requirements of HSPD-8; second, an 
integrated, intra- and inter- governmental structure to implement HSPD-
8; and third, an aggressive timeline for achieving HSPD-8's goals and 
objectives. Implementation of HSPD-8 involves the participation of 
Federal, State, and local agencies, and, among other things, will 
result in the development and dissemination of clear, precise, and 
measurable preparedness standards and goals addressing State, local, 
and Federal prevention and response capabilities.
    Further, I would like to reemphasize the importance of ODP's State 
Homeland Security Assessments and Strategies that were submitted to ODP 
by the States and territories this past January. And, it is important 
to note that this is not the first time States have been tasked with 
providing assessments. The information contained in these reports 
provides critical data describing State and local capabilities and 
requirements for use by both the States and the Federal Government,. 
This data provides a critical benchmark from which ODP can assess both 
past and future progress in their development of preparedness 
capabilities. The current assessments and strategies are being compared 
to the first group of assessments and strategies submitted in Fiscal 
Year 2001. Then, the current group of assessments and strategies will 
provide a mark from which ODP can compare future assessments and 
strategies. In addition, the current assessments and strategies will 
help guide ODP's decisions regarding State and local training, 
equipment, planning, and exercise requirements.
    Also critical to the implementation of HSPD-8 is the improved 
delivery of homeland security assistance, including homeland security 
funding to State and local governments. This too was examined by the 
DHS Inspector General's report, which concluded that although ODP has 
been able to distribute funds to States in a timely manner, there were 
some impediments that slowed the further distribution of funds from 
States to local jurisdiction. These impediments did not exist in every 
State or in every jurisdiction, and, as the Inspector General noted, 
some impediments are unavoidable, and some can be corrected. For 
example, some delays in the distribution of homeland security funds can 
be linked to State and local procurement laws and requirements. Other 
delays resulted from the local planning process and the need to form 
consensus across multiple jurisdictions. Some delays were the result of 
deliberate decisions by State and local leaders who chose to spend more 
time planning rather than to spend funds quickly. Yet, despite these 
difficulties, ODP and the Department are committed to finding ways to 
further improve the distribution of homeland security funds.
    To that end Mr. Chairman, on March 15, 2004, Secretary Ridge 
announced the creation of the Homeland Security Funding Task Force. 
This task force--chaired by Massachusetts Governor Mitt Romney and co-
chaired by Akron Mayor Donald Plusquellic, and comprised of several 
governors, mayors, county executives, and a representative of tribal 
governments--will examine DHS' funding process for State and local 
assistance to ensure that DHS funds to the Nation's first responders 
move quickly and efficiently. It will also identify ``best practices'' 
in an effort to offer solutions to both the Department and State and 
local jurisdictions. By directly involving the States, territories, 
local communities, and tribal governments, this task force will provide 
an ongoing source of information to assist DHS and States and 
localities to do a better job. And, the formation of this task force 
underscores the Secretary's commitment to a partnership between the 
Federal Government and its State and local counterparts, and his 
approach to homeland security as ``One Mission, One Team.'' This task 
force, Mr. Chairman, will provide a report to the Secretary by mid-May, 
which we will share with the Congress.
    An additional and important step toward improving how homeland 
security assistance is provided to States and local jurisdictions is 
contained in the President's Fiscal Year 2005 budget request. As part 
of the effort to improve the distribution of homeland security funds, 
the Administration has requested that the Secretary be provided 
increased flexibility under the distribution formula for ODP's Homeland 
Security Grant Program as contained in Section 1014 of the USA PATRIOT 
Act. This request is consistent with the Department's long-standing 
position that the PATRIOT Act formula be changed.
    Our request to change the formula is designed to ensure that we can 
target Federal dollars in a manner consistent with protecting the 
nation in the most efficient and effective manner. It is designed to 
enable the Secretary to consider critical factors such as threats and 
vulnerabilities--factors this Committee has recognized as important. 
This Increased flexibility will allow the Secretary to move Federal 
resources to respond to changes in vulnerabilities and threats.
    This more nuanced approach does not mean, however, that minimum or 
base funding levels for the States and territories will be eliminated. 
As you are aware, Secretary Ridge has consistently stated that a 
minimum amount of funds should be provided to all States and 
territories, and that for the nation to be secure, all States and 
territories must have the resources to address their particular and 
unique security needs.
    Secretary Ridge is also taking steps to ensure that its staff and 
program offices can more efficiently support States and localities. On 
January 26, 2004, the Secretary informed the Congress of his intention 
to consolidate ODP with the Office of State and Local Government 
Coordination to form a new office--the Office for State and Local 
Government Coordination and Preparedness.
    This consolidation is in direct response to requests from the 
nation's first responders to provide the emergency response community 
with a ``one-stop-shop'' that is a central focal point for grants, 
assistance, and other interactions with the Department. Further, this 
consolidation places 25 varied State and local assistance programs and 
initiatives within one office to ensure simplified and coordinated 
administration of these programs. Finally, this consolidation also will 
eliminate the duplication across program lines and heighten the 
complementary and synergistic aspects of these programs, and, by 
linking these programs to the State strategies and assessments, 
maximize their ultimate impact on States and localities.
    At the same time, grouping these programs under one consolidated 
office ensures that the grants administration staffs and a limited 
number of program subject matter experts who guide these programs will 
work together, share their expertise, and achieve the Department's goal 
of a better prepared America. The consolidation will enable the 
Department to evaluate programs more accurately, exercise greater 
Federal oversight, and ensure the government-provided resources are 
dispersed quickly and used to maximum efficiency. This decision will 
benefit States and localities by providing them with a unified and 
coordinated means of assistance and support. It also provides a 
platform to ease coordination with other departments and agencies, as 
required in HSPD-8.
    In closing Mr. Chairman, let me re-state Secretary Ridge's 
commitment to support the Nation's State and local emergency response 
community, and to ensure that America's first responders receive the 
resources and support they require to do their jobs. This concludes my 
statement. I am happy to respond to any questions that you and the 
members of the Committee may have. Thank you.

                                  ODP

                    Office for Domestic Preparedness

                  ODP Training and Standards Materials

                        Prepared April 28, 2005

                       ODP Reference Materials On

           Training, Equipment, Exercises & Program Guidance

<bullet> 2003 Prevention & Deterrence Guidelines
<bullet> Executive Summary, ODP Training Strategy
<bullet> 2004 Standardized Equipment List
<bullet> 2004 ODP Training Approval Process
<bullet> Initial Strategy Implementation Plan (ISIP) Guidelines w/ CD 
ROM
<bullet> ODP Training Catalog
<bullet> ODP Emergency Responder Guidelines
<bullet> State Handbook--ODP Strategy & Assessment Guide

        <bullet>2003 Prevention & Deterrence Guidelines--A set of 
        general activities, objectives, and elements that organizations 
        as well as those in command positions within the organizations, 
        should consider in the development of prevention plans. The 
        Guidelines are divided into five (5) functional categories: 
        Collaboration, Information Sharing, Threat Recognition, Risk 
        Management, and Intervention
    (Ties back to the National Strategy for Homeland Security and 
strategic objectives: ``Prevent terrorist attacks within the U.S.; 
Reduce America's Vulnerability to terrorism. and; Minimize the damage 
and recover from attacks that may occur, where prevention is comprised 
of . . .deter all potential terrorists from attacking America. . ., 
detect terrorists before they strike, . . .prevent them and their 
instruments of terror from entering our country, . . . take decisive 
action to eliminate the threat they pose.''
    Executive Summary, ODP Training Strategy--Addresses key questions 
Who should be trained, What tasks should they be trained to perform, 
which training/instruction methods and training sites need to be paired 
with which tasks to maximize success in training, what methods are the 
most capable of evaluating competency and performance upon completion 
of training, what gaps need to be remedied in existing training? The 
training strategy provides a strategic approach to training and a 
national training architecture for development and delivery of ODP 
programs and services.
    (The ODP training program develops and delivers specialized 
training to state and local jurisdictions to enhance their preparedness 
and capacity to respond to terrorist incidents involving chemical, 
biological, radiological, nuclear or explosive (CBRNE) materials, as 
well to identify emerging and unmet training requirements. The Training 
& Technical Assistance Division works closely with institutions of 
higher education and professional public safety organizations to 
establish a framework for distributive training efforts, as well as a 
Congressionally mandated distance learning program.)
    2004 Standardized Equipment List (SEL)--The list provides the 
foundation for the Authorized Equipment List (AEL) that we provide 
under our grants for state and local procurement. The SEL was developed 
by the Interagency Board (IAB) for Equipment Standardization and 
Interoperability. Officials from U.S. Department of Homeland Security, 
U.S. Department of Justice, the Public. Health Service, the U.S. 
Department of Energy, and state and local emergency response experts 
assisted in the development of the authorized equipment lists. The 
latest AEL comports with the SEL, but has additional categories and 
equipment. ODP does not define equipment standards, but rather assists 
with the implementation of accepted standards through the AEL. For 
instance, to realize improved interoperability of communications 
equipment, beginning with FY 2003 SHSGP Part II all radios purchased 
with ODP grant funds should be compliant with the FCC-approved APCO 25 
standard. In the category of personal protective equipment (PPE), all 
self-contained breathing apparatuses (SCBAs) purchased must meet the 
standards established by the National Institute for Occupational Safety 
and Health (NIOSH).
    2004 ODP Training Approval Process--Provides the states and locals 
procedures for requesting Non-ODP Awareness and Performance level 
courses through their State Administrative Agency (SAA), then through 
their ODP Preparedness Officer, who forwards the request to the ODP 
Training Division. Conditional approval will be given pending further 
review by DHS-ODP Center for Domestic Preparedness (CDP). The requestor 
will then perform a comparison between the objectives of the course in 
question and the ODP Training Doctrine (ODP Training Strategy, 
Emergency Responder Guidelines, Prevention Guidelines), using a 
template along with course materials for CDP review. CDP has 45 days to 
conduct a review for Awareness level courses, and 90 days for 
performance level courses and provides a recommendation for approval or 
denial to ODP.
    Initial Strategy Implementation Plan SIP Guidelines w/CD ROM--The 
ISIP is a new requirement under the FY2004 Homeland Security Grant 
Program (HSGP). The goal of the Initial Strategy Implementation Plan 
(ISIP) is to capture in one, standardized format the most current 
information available for planned projects, and estimates of the grant 
funding to be applied to these projects, for all FY 2004 HSGP and Urban 
Areas Security Initiative (UASI) Grant Program funding received. The 
ISIP will uniformly report exactly how the FY 2004 grant funding is 
being obligated through the retention of funds by the state, as well as 
through awards made to subgrantees to local units of government or 
other state entities. The projects to be funded must be linked back to 
the State's or Urban Area's strategic goals and objectives from the 
State or Urban Area Homeland Security Strategy.
    ODP Training Catalog--A compendium of training that draws on a 
large number of resources to develop and deliver these training 
programs; includes the National Domestic Preparedness Consortium, 
active emergency responders, national associations, contract support 
and other agencies from the local, state and Federal levels. The 
catalog lists training courses by training level (awareness, 
performance, management & planning) for the emergency responder 
community, including fire, law enforcement, EMS, HAZMAT, public works, 
governmental administration, and emergency management. To ensure 
compliance with nationally accepted standards, these courses have been 
developed and reviewed in coordination with other Federal agencies, 
including the Centers for Disease Control and Prevention (CDC), the 
Department of Energy (DOE), the Environmental Protection Agency (EPA), 
the Federal Bureau of Investigation (FBI), the Emergency Management 
Institute (EMI), as well as with professional organizations such as the 
International Chiefs of Police, the International Association of Fire 
Chiefs, and the National Sheriffs Association. Courses listed in the 
DHS Compendium of Federal Terrorism Training For State and Local 
Audiences may also be easily approved by ODP when applicable.
    ODP Emergency Responder Guidelines--A tool for first responders 
seeking to improve their training and master their craft:, reflecting a 
step-by-step progression from Awareness through Performance to Planning 
and Management training level by discipline (i.e. fire, EMS, police, 
etc.). Moving from one step to the next requires more experience, 
specialized training, and depth of understanding. These Guidelines 
provide an integrated compilation of responder skills, knowledge, and 
capabilities.
    (These are not official regulations, but informed advice of subject 
matter experts from both the private and public sectors, and have been 
developed in concert with existing codes and standards of agencies, 
such as National Fire Prevention Association (NFPA), and Federal 
regulatory agencies, such as Occupational Safety and Health Admin. 
(OSHA), but offered for considered by the response community)
    State Handbook_ODP Strategy & Assessment Guide--This handbook was 
designed to be used by the State Administrative Agency point of contact 
for their state to update their State Homeland Security Strategy (SHSS) 
and allocate homeland security resources. It served as a guide for 
completing a risk, capabilities, and needs assessments for their state. 
Each step in the assessment and strategy development process is 
addressed in the Guide, along with detailed instructions for entering 
and submitting the required data using the ODP Online Data Collection 
Tool. This guide provided a standardized format for all states to 
complete their assessment and develop their strategies, which made it 
easier to analyze and formulate recommendations. There was also a 
Jurisdictional Handbook that provided specific procedures for local 
level completion of the assessment data.
    (In an effort to be consistent with the National Strategy, ODP 
coordinated the revision, development, and implementation of the State 
Homeland Security Assessment and Strategy (SHSAS) Program with Federal 
agencies, state and local representatives. The coordination has ensured 
that the assessment and strategy process is aligned with and focuses on 
the six critical mission areas as defined in the National Strategy.)

    Mr. Shadegg. Thank you very much.
    I now welcome our second witness, Mr. Dennis Schrader, 
director of Maryland Homeland Security. Again, your full 
statement is in the record. I would appreciate it if you could 
summarize the salient points.

STATEMENT OF DENNIS R. SCHRADER, DIRECTOR, GOVERNOR'S OFFICE OF 
              HOMELAND SECURITY, STATE OF MARYLAND

    Mr. Schrader. Thank you, Mr. Chairman, Ranking Member 
Thompson. It is a privilege to be here on behalf of Governor 
Ehrlich, your former colleague.
    I also wanted to acknowledge that Congressman Cardin is a 
member from our state, is a member of this committee. And we 
have routine communications with the congressman.
    I will summarize very quickly the major points in my 
testimony. Governor Ehrlich takes his responsibilities very 
seriously. And we are in an unprecedented mobilization of the 
states, sharing power with the federal government in the last 
36 months.
    We have not fought a war on our soil since 1865. And 
therefore, the culture of the states is not organized around 
this kind of effort. And it is moving very quickly under the 
tutelage of the Department of Homeland Security.
    It has been very clear over the last year that Secretary 
Ridge and his folks have had a clear sense of urgency and 
momentum and are working very diligently to keep us organized 
at the state level.
    Just a few major observations I would like to make and then 
I will discuss it in questions further, three points that--I 
draw these from my conclusions--are: that the Department of 
Homeland Security and the Department of Justice we see are very 
important partners in the war on terror at home; that we have 
to tie these grants to risks that have threat-based 
requirements and are coordinated with ongoing intelligence in 
each state. I will talk about that in a minute.
    We need to build program management accountability and 
execution into the process. States do not have the kinds of 
program management capability that the Department of Defense 
has had and has been developing since 1947.
    And finally, we view the UASI program as an excellent tool 
for the states to organize regions and have the carrot and 
stick required to encourage local jurisdictions to work 
collaboratively under the states' leadership.
    Let me just summarize again the first point. We have 
decided, as part of our state strategy, to align the federal 
strategy and the President's state template initiative as the 
framework for our strategy in the state.
    And we have reached out to the Anti-Terrorism Advisory 
Committee, which has done a splendid job in helping us organize 
around intelligence. That is where we are looking to develop 
our threat analysis.
    One resource that we need more than anything else are 
analysts. They are very hard to come by. And at the state 
level, being able to have analysts that can work with us to 
develop actionable plans are critical.
    The other thing we have done with our resources, the 
governor has established the Maryland Coordination and Analysis 
Center, which is a collaborative partnership out of the Anti-
Terrorism Advisory Council, working with the Maryland Joint 
Terrorism Task Force. And that effort is going very nicely.
    We have also added the captain of our port so that our area 
maritime security program is embedded within the Anti-Terrorism 
Advisory Council. And therefore, we are driving towards 
developing a strategy.
    One thought about vulnerability analysis is that we find 
that there is far too much focus and too many vulnerability 
analyses going on. And that is driving the perceived cost up 
and inflating it, rather than having it focused on threats 
embedded with the vulnerability analysis, as pointed out in the 
GAO Report 02-208T, which was an excellent report.
    On the program management front, a couple of key points I 
wanted to make are that we really urge you not to reduce the 
money for the EMPG. Our local emergency directors are really 
the front lines of the folks.
    And we need to be putting more money into them and 
developing them because they need to be developed. And their 
roles have expanded dramatically in the last 36 months.
    They have to be knowledgeable in grants management, how to 
coordinate with law enforcement. It is a fairly significant 
task. We need to make sure that we continue to provide them the 
personnel resources they need.
    Lastly, the reimbursement process, we need to change the 
language. The language implies that a Brinks truck shows up at 
the state's bank and cash is deposited.
    That is not the way this process works. It is a 
reimbursement process. And the local jurisdictions are 
reimbursed. The states do not receive the money. We oversee the 
process.
    We reimburse the local jurisdictions and then we are 
reimbursed by the federal government. There is a lot of 
misperception.
    There are things that can be done to facilitate this 
process. But the local jurisdictions need training. And we are 
working with those local emergency directors to teach them how 
to work this process.
    Lastly, the research, development test and evaluation, the 
one thing that the federal government provides which is 
absolutely critical, things like the U.S.-Visit Program, the 
Radiation Portal monitors that are being provided, the Homeland 
Security Information Network--on and on. These programs are 
invaluable.
    The state and local governments do not have the kind of 
RDT&E resources to be able to develop that. So I will be glad 
to answer your questions.
    Thank you, sir.
    [The statement of Mr. Schrader follows:]

                 Prepared Statement of Dennis Schrader

Introduction
    Good morning Chairman Shadegg, Ranking Member Thompson and members 
of the Subcommittee. I want to thank you on behalf of Governor Bob 
Ehrlich (your former colleague in the House of Representatives) for 
allowing us the opportunity to share with you the State of Maryland's 
perspective and insights on first responder assistance programs and our 
overall approach to homeland security.
    My name is Dennis Schrader and I am the Director of the Governor's 
Office of Homeland Security for the State of Maryland. My role is to 
direct and coordinate all aspects of Governor Ehrlich's Homeland 
Security program across the state of Maryland.
    The attacks of September 11, 2001 have created the need to better 
prepare and equip our nation to conduct the Global War on Terror and 
better coordinate the functions and responsibilities of various 
departments and agencies across all levels of government--local, state, 
and federal and the private sector. The lessons learned from September 
11th propelled us to think, plan, and act in an integrated fashion to 
address common concerns, challenges, and mutually supportive 
capabilities. The states have a pivotal role in linking the Federal 
government efforts to our local communities throughout the nation. 
Governor Ehrlich acknowledges his role as a state partner on the home 
front of this war.
    Let me start by saying that I have been very pleased by the 
extraordinary effort this past year by the newly formed Department of 
Homeland Security (DHS). It is evident that Secretary Ridge is building 
a culture of responsiveness. As I interact with the various agencies 
throughout DHS, there is a clear sense of urgency and momentum that is 
felt at the state level. I have a number of observations that I hope 
will be helpful in moving forward to another level of capability.

Risk Based Funding & Management
    The goal first and foremost is prevention. The key to prevention is 
intelligence.
    The first priority of the first responder grant assistance programs 
should be to ensure that the funding is directed to where the 
intelligence and assessments indicate that it is most needed. The 
report by the GAO (GAO-02-208T) discusses a risk management approach to 
homeland security. In Maryland we want to pursue a threat-based 
resource allocation philosophy. Maryland has invested time, energy, and 
money by participating in and supporting the Anti-Terrorism Advisory 
Council (ATAC) led by our U.S. Attorney's office in Baltimore. Our most 
pressing need is for analysts who can provide timely, targeted, and 
actionable advice based on intelligence analysis. Our ATAC has 
established a Maryland Coordination and Analysis Center (MCAC). This 
Center is commanded by a local Police Capt and has resources from 
Federal, State, and local public safety and law enforcement standing 
watch and performing analysis. The ATAC and MCAC are coordinated with 
the Maryland JTTF that is led by the FBI.
    Vulnerability Analysis--Vulnerability analysis is a critical tool, 
but must be coupled with threat analysis. Currently there are multiple 
levels of vulnerability analysis conducted by components of federal, 
state, and local governments. These ongoing efforts lack integration in 
both their conduct and in their recommendations, resulting in confusion 
of priorities, resource allocations, and gridlock in determining 
appropriate courses of action. In addition, if vulnerability 
assessments are used as the basis for resources without factoring in 
threat analysis, the cost of preparedness will be significantly 
inflated.

Program Management Capabilities / Accountability--States and local 
government must rapidly develop program management capabilities as well 
as state and local points of accountability. Several agencies are now 
asked to program, plan, and execute efforts that are more complicated 
than they were prior to 9/11--yet we have not built-up the skills, 
knowledge, and experiences to do so. (DoD, PPBS Program Management and 
acquisition professional communities provide a high-end example--States 
and DHS are managing $8.0 Billion or more in programs, must follow 
suit).
    Emergency Mgt & Public Safety Officials Roles & Grant Expertise--
The key strategy for emergency management is an All Hazards approach to 
readiness. Local emergency managers and public safety officials are key 
partners in the success of DHS and State Homeland Security. They are 
responsible for plan coordination and development, approval, execution, 
and oversight. Efforts need to be made to provide substantive training 
and development of grants mgt; increase EM Mgt/Public Safety visibility 
with local government of their roles in the grants process; and 
increase and strengthen their participation in development and 
execution of state and federal HLS processes, policy, and strategies. 
Our major recommendation in this area is to maintain the current EMPG 
formula for state and local jurisdictions at 50% eligibility for 
personnel costs and consider increasing the focus of FEMA on the 
increasingly difficult job of the local emergency manager.
    Reimbursement Process--The process is not understood and is not 
part of a clear communication strategy. ODP grants and UASI are 
reimbursable programs. The perception is that the states have been sent 
cash and are sitting on it. The reality is that the state has a 
fiduciary role to ensure that the grant allocations are supported by 
appropriate spending plans and that the reimbursement of state and 
local expenditures is backed up by receipts.
    Research, Development, Test, and Evaluation (RDT&E)--The Federal 
government is in a unique position to provide RDT&E and acquisition 
support to the states that will attack major issues. Programs such as 
US--Visit, Radiation Portal monitors, and Homeland Security Information 
Network (HSIN) are key capabilities and tools that state and local 
governments could not do themselves. These are very important and 
timely investments. In addition, tools like Infrared (IF) Sensors and 
intelligent object recognition software for surveillance of Key 
infrastructures like rail and seaports could be important but hard 
programs to implement.
    Sustainability--Homeland Security investments must be sustainable. 
Operational and maintenance costs and contracts must be considered; 
life cycle considerations have not been funded and are not reimbursable 
under the grants (limited service contracts/replacement parts at the 
time of the agreement. Much of these costs have not been considered or 
included in future resource planning.

    Regional Capabilities--The UASI grants are pivotal in coordination 
and integration of government, academic, not-for-profit, and private 
sector capabilities. Through its multi-jurisdictional nature, 
structural requirements, and funding incentives UASI grants provide the 
forum and incentives for dialogue and coordination. Active state and 
local government commitment and participation is critical. Principle 
executives from each UASI region should sign a collective document 
appointing their direct representatives to Urban Area Work Group (UAWG) 
and acknowledging responsibility for directing UASI process. States 
must provide an active/empowered facilitator to each UAWG with both 
authority and ability to promote, communicate, and integrate across 
levels of governments and regions.

Role of a Citizen Oversight Committees--Maryland has begun using its 
Citizen Emergency Advisory committee to review and critique goals, 
principles, strategies, management plans, and grant allocations to 
ensure local public scrutiny of Maryland's efforts.

Conclusion/Recommendations:
In conclusion, I recommend the following:
        1. DHS and DOJ are very important partners in the War on Terror 
        at home. Clearly tie grants to risks that have threat based 
        requirements and are coordinated with the ongoing intelligence 
        efforts in each state.
        2. Build program management accountability and execution into 
        the process.
        3. Continue to foster regional programs like UASI as a tool the 
        states can use for building regional networks of readiness.

    Mr. Shadegg. Thank you very much for your statement.
    Let me begin with the first set of questions. And I want to 
start with kind of a fundamental one.
    The Morning Update which we receive has a headline at the 
bottom of the page which says, ``Eighty Percent of Homeland 
Security Funds Have Failed to Reach Local Agencies.''
    As I indicated in my opening statement, our reports suggest 
that that headline is, in fact, misleading. Our report would 
suggest that it is true that only 15 percent of the money has 
been spent, but not that the money has not been received by the 
agencies; rather that the money has, to a larger degree, been 
received by the agencies and it simply has not been spent.
    And in my opening statement, I made the point that there 
may be good reasons for that or bad reasons for that. I guess 
my first question is: do you both agree that this headline is 
in fact misleading and that the actual state of affairs is that 
monies are there; they are in the process of being spent, but 
have not been spent.
    Ms. Mencer. Thank you. Yes, I think you are right.
    That is misleading. I think there are a lot of reasons. And 
certainly, the funding task force is looking into these exact 
reasons.
    I think what they have already discovered, in my attendance 
at some of their meetings, is that there is not a one-size-
fits-all answer to this pipeline issue. And certainly, as many 
states as we have and territories, that is as many different 
configurations of how this process works with procurement 
issues and drawdown issues.
    So they are looking at that. There are some fixes that are 
available to states that are having problems. And I am sure 
that their funding report will be able to address some of those 
best practices to share with states that need some additional 
help.
    Mr. Shadegg. Mr. Schrader?
    Mr. Schrader. Yeah, I would agree. Our money has been 
obligated 100 percent in fiscal year 2003. And we are just 
about to start the fiscal year 2004 obligation process. That 
clock started ticking in mid-March.
    We have found that once the budget allocation is given to 
the local jurisdictions, they need time to figure out how they 
are going to spend it. they have to go through appropriations 
processes with their local councils. They have procurement 
regulations they have to deal with. And they are also building 
consensus.
    I will give you an example. In Central Maryland, where we 
had the Urban Areas Security Initiative, they have formed an 
urban area work group. They have five projects they are working 
on.
    They are talking about unprecedented projects that would 
not have been possible before this effort; for example, back-up 
911 centers, where one jurisdiction will back another one up 
and getting additional generation capacity. That process has 
taken several months for them to agree to that and also 
figuring out who is going to pay for it so that they can then 
apply for the reimbursement.
    So I would agree that it is misleading. But it is an 
understandable process.
    I know in the federal government, execution rates of money 
are a critical indicator of progress. And it is a good one.
    But I think the front end process of program management 
needs to be dealt with in addition to that because otherwise it 
is misleading.
    Mr. Shadegg. Mr. Schrader, from your explanation, it seems 
to me this is a new process and we are going through it for the 
first time. And I guess it would be your belief that now that 
we get the cycle going, we will be able to get these fund spent 
for the right assets on a more rapid basis in the future.
    Is that essentially what you are saying?
    Mr. Schrader. Exactly. And we are working very closely with 
our regions.
    I will give you another example. Someone mentioned 
interoperability. In Western Maryland, we have very mountainous 
terrain. We have three jurisdictions who are working together. 
One jurisdiction has the opportunity to get 800 megahertz. The 
other jurisdiction cannot use 800 megahertz, or at least they 
do not believe they can, because it will cost a lot more money 
to put up the number of towers they need.
    We are facilitating that process with Western Maryland. We 
are spending some of our grant money to do a statewide 
engineering analysis so we have a master plan to build a 
statewide backbone. And we are working with those local 
jurisdictions.
    That kind of engineering and planning takes a lot of time. 
It would be very easy for them to just run out and buy another 
1,000 masks. That does not help with the real fundamental 
questions on the table.
    Mr. Shadegg. I need to set a good example and not run over 
in my time. And I am getting short. Let me ask you each a 
question and ask you to respond fairly quickly.
    Mr. Schrader, I would appreciate it if you would give us 
any suggestions you think we can do to remedy the problem, 
looking at it from a state perspective, at the DHS. And then 
Ms. Mencer, the opposite for you. And if you would keep your 
answers brief, I would appreciate it.
    Mr. Schrader. Well, I will just take what I have right out 
of the report. I would really encourage DHS and DOJ to work 
collaboratively and make the anti-terrorism advisory councils 
work effectively.
    I would focus on borrowing the best practices from DOD on 
program management because you are pushing a lot of money 
through a very small pipe and building the capacity of the 
state and local governments to be able to do program management 
to effectively execute these funds. And finally, RDT&E, I 
cannot emphasize how important that is.
    Mr. Shadegg. Ms. Mencer?
    Ms. Mencer. Yes, I would agree. And I am happy to report we 
are partnering with the DOJ on some of their best practices for 
grant management, as we have always done. We used to part of 
DOJ, so we are very familiar with that.
    And they have been doing grants for a very long time too. 
So we are looking at better ways to partner with them and make 
sure that the states partner at their level too because the 
states have Department of Justice grants that they have always 
processed as well.
    But it is the first time that we have seen this much money 
come this quickly, with the expectation that it be spent so 
rapidly. And that is a great burden on the states. And I 
commend all the state homeland security advisers and their 
administrative people that are dealing with this and then 
having to suffer the headlines in the paper that they are not 
spending fast enough.
    It is a very difficult process.
    Mr. Shadegg. Thank you.
    The chair would now call on the ranking member for his 
questions.
    Mr. Thompson. Thank you, Mr. Chairman.
    Ms. Mencer, on two different occasions, the inspector 
general has indicated that DHS does not have the performance 
standards necessary to measure what they are doing with the 
states. Have we established those standards at this point?
    Ms. Mencer. Sir, we have had standards for awhile, going 
aback to the first weapons of mass destruction grant in 2000 
and, prior to that, with the Nunn-Lugar grants that were done 
in 1997 and 1998.
    Mr. Thompson. Let me be a little more specific for you. The 
inspector general said on December 31, 2003 that you do not 
have them. In April 2004, they followed up the report and said 
that what you have created does not fully address the federal 
funding for preparedness and response capabilities. Are you 
aware of that?
    Ms. Mencer. Yes, sir.
    Mr. Thompson. Okay.
    Ms. Mencer. And if I may respond to that? You are 
absolutely correct.
    There needs to be a better system for measuring 
preparedness, which is I think the kind of standards you are 
referring to. How do we measure if the state is able to a 
handle a nuclear attack or a chemical attack?
    And that is indeed what HSPD-8 does direct us to do. And so 
we have begun to have a cooperative effort among all agencies--
Department of Defense as well--to partner with us and to look, 
with states and locals too, to look at: how do we measure 
preparedness?
    We have had standards in place in terms of equipment 
standards. And those have been in place for a long time and 
validated by agencies that look at equipment standards. So that 
has been there.
    Preparedness measures are something that we are working on 
now to determine how prepared are we? And at what level do we 
need to be prepared?
    Mr. Thompson. Thank you.
    So you would say to the committee this morning that that is 
a work in progress, more or less?
    Ms. Mencer. There are parts of it that are in a work in 
progress, yes. There are parts of it that states have been 
doing for quite awhile. And we also required that in our state 
strategies this year for 2004, saying that they had to have 
goals and objectives tied to their state strategy.
    And now the funding requests, as they come in, they must 
link their request for their purchase to a goal and objective 
that they themselves had set for their state.
    Mr. Thompson. Okay. Well then explain to me why we have a 
$697 million reduction in the amount of money requested to do 
just that.
    Ms. Mencer. Well, you know, we would have to go 
specifically point by point through those reductions. But we 
believe that the 2005 budget meets the needs, as outlined in 
the budget, for our first responder community.
    Actually the budget request of 2005 is over by a few 
million the request in 2004. So are very consistently asking 
for the resources necessary.
    Mr. Thompson. But you are asking for less money.
    Ms. Mencer. No, sir. We are actually asking for a few 
million more than we did for our 2004 budget.
    Mr. DeFazio. They had a supplemental last year.
    Mr. Thompson. Well, I do not want to get into semantics.
    Mr. DeFazio. Well, that is what she is doing.
    Mr. Thompson. Yeah, I mean, the original budget, not the 
supplemental.
    Ms. Mencer. No, sir. The requested budget that we requested 
in 2004 is less than what we requested in 2005. We were funded 
at a higher level for 2004.
    Mr. Thompson. Okay. Well, it is still semantics.
    Thank you.
    Mr. Shadegg. I thank the gentleman.
    The chair would now call on the chair of the full 
committee, Mr. Cox, for questions.
    Mr. Cox. Thank you very much. I appreciate very much both 
of your testimonies. And I want to congratulate you on: first, 
of course, the things you are already doing so well; second, on 
helping us identify where the problems are--in your testimony, 
you both did that; and third, jumping on it right away.
    Because some of this is a work in progress. And it will be 
for several years, if not decades. And I think we are all 
shirking our responsibility if we do not own up to that. I 
think in your testimony you have done a very good job of that.
    And so I do not want to dwell on those things that would 
have been my questions had you not laid them out that way, such 
as the areas where the inspector general's report, which you 
included with your testimony, says we need to do better. You 
are working on that.
    I am pleased to hear that we are all focused on these 
issues together and we are going to fix them. But I want to ask 
about something else that is part and parcel of this; and that 
is, the way that we allocate the money and the degree to which 
the department has discretion to allocate to the states and 
localities within the states based on risk.
    DHS follows a formula set by Congress, as I mentioned, that 
I strongly disagree with--and so do you, I think--that 
guarantees every state a specific amount simply because it is a 
state. It has nothing to do with the nation's security or 
terrorism.
    It is just a number. It is a completely arbitrary number. 
But that completely arbitrary number consumes almost 40 percent 
of the pot. And that leaves a little more than 60 percent 
thereafter.
    Why, Ms. Mencer, did ODP choose to allocate that remaining 
60 percent entirely based on population? Doesn't that compound 
the problem of a formulaic allocation of the funds?
    Ms. Mencer. I think what we attempted to do in the budget 
request is to balance both issues. By putting more money in the 
2005 request for Urban Areas Security Initiative, we have 
addressed the risk vulnerability, critical assets and high 
density population areas, which we believe are deserved of 
increased funding because of those things that they do have 
there, but at the same time, maintain a minimum amount of 
funding for each state.
    Because I think what we saw in Oklahoma City and what we 
saw in the Midwest with the pipe bomber who went around and put 
pipe bombs in mailboxes, we never really quite know where the 
next attack will be. So I think this provides some measure of 
fiscal contribution to all the states, as well as the urban 
areas, which by necessity need the majority of the funding.
    Mr. Cox. Well, I want to put the question again perhaps 
more directly. The state formula grants comprise a component 
that includes the state minimum and the entirety of the 60 
percent or so that remains after that was awarded by ODP based 
on population alone with no other consideration taken into 
account.
    I want to know why that is not just as formulaic as the 
small state minimum and why we are not doing it on the basis of 
risk. And I need to understand whether you think that you 
cannot do it and you need legal help because it cannot be done 
administratively.
    Ms. Mencer. Well, I think the budget allows the secretary 
the flexibility to put funds where he feels the needs are the 
greatest. And I hear your concerns. I think those are good 
ones.
    I think certainly we need to take risk into consideration 
in a lot of things. I think there are some rural areas out 
there who would say that they are at risk as well because of 
their power plants.
    Mr. Cox. Precisely. And that is why I find it inadequate to 
suggest that, in the other program, in the $596 million that 
represents high-threat urban area grants, that that is the 
entirety of our claim to be allocating monies on the basis of 
risk, as if there is a synonymous relationship between being 
urban and being at risk.
    That is not necessarily the case at all. We have this whole 
IAIP directorate. We have TTIC. We have the FBI. We have the 
CIA. We have all these defense intelligence programs.
    What is it all worth if in the end we allocate the monies 
on the basis of population and then we have a smaller pot and 
we give it to cities and we say that is the risk part. We might 
as well get rid of this multibillion investment in 
intelligence.
    Ms. Mencer. As you know, we have increased--doubled--the 
amount going to the urban areas under risk and threat 
vulnerability assessments.
    Mr. Cox. And that is part of my complaint because I do not 
think it is right to say that it is just a tautology, that 
urban and risk is the same thing. It just cannot be.
    And I jump on this at the very point in your response where 
you were telling me a point I agree with, which is that rural 
areas face threats too. And areas with no population whatsoever 
might contain some of the nation's most vital infrastructure.
    Certainly, agricultural areas need to keep track of the 
risk to the food supply and on and on--water and other 
resources. So it just cannot be that we should check the box 
that says ``urban'' and then say we have taken care of risk.
    Neither should it be the case that all urban areas are the 
same. And the mere fact that there is a big city does not mean 
that that is precisely where we should be targeting our funds. 
We have to be a lot smarter, the way we do this.
    So the question then dissolves into: do you believe you 
have sufficient administrative authority to do this right away? 
And are there plans to do so?
    Ms. Mencer. I do believe that the secretary has that 
flexibility. And I know he has expressed an interest, as you 
had stated earlier, to look at this funding formula and to work 
with Congress in determining what that should be.
    Mr. Shadegg. The time of the gentleman has expired.
    The chair would now call upon the ranking member, Mr. 
Turner, for his questions.
    Mr. Turner. Thank you, Mr. Chairman. One of the things that 
caught my attention in the statement that you submitted, Mr. 
Schrader, which I think is critical, is that is you have a 
comment on vulnerability analysis is a critical tool, but that 
must be coupled with threat analysis.
    Mr. Schrader. Yes, sir.
    Mr. Turner. And I am going to have a little different angle 
on it than you do because what you were asking for is greater 
assistance to carry out threat analysis. And it seems like what 
we lack here, in addition to the items that Chairman Cox was 
referencing, is that we have not yet decided who is supposed to 
carry out these analyses.
    I mean, obviously, you have the perception that for 
Maryland, you are supposed to do it. And your request, in your 
statement here is that, you need the threat analysis capability 
to be able to wisely expend the funds that you receive.
    And yet, we have another group here at the Department of 
Homeland Security, IAIP, that is supposed to carry out that 
task for the country. Somehow, we are going to have to come 
down to the point where we decide who is making these 
decisions.
    Our legislation calls for the creation of essential 
capabilities for preparedness. And perhaps we can agree, 
through a process that we suggest in our bill, as to what the 
essentials are. But we have to be able to have some capability 
to make decisions for the country regarding threat.
    I am not convinced that we are going down the right path 
having you in Maryland trying to decide how you are going to 
build the capability in Maryland to do your threat and 
vulnerability assessments, when we claim to have another group 
in Washington that is supposed to be doing the same thing.
    So I think we may have a real need to sort those 
responsibilities out.
    Mr. Schrader. May I clarify the question?
    Mr. Turner. Yes.
    Mr. Schrader. We may have a misunderstanding. What we are 
doing in Maryland is a partnership with the federal government. 
In fact, the folks that are actually doing the work are the FBI 
with the Joint Terrorism Task Force.
    And in the information sharing process, we have developed a 
collaboration between federal, state and local law enforcement 
because the theory is that information sharing between the 
three levels of government will allow us to protect ourselves. 
And therefore, we have reached out. And Attorney General 
Ashcroft, in his wisdom, established these advisory councils 
after 9/11.
    Our assistant U.S. attorney in Baltimore has done a 
marvelous job in pulling that together. But that is a 
collaborative effort with the federal government.
    We do not intend to build our own capability. What we are 
doing is learning how to reach out to the federal government 
and work collaboratively with the federal resources.
    Mr. Turner. I understand. I think that is wholly 
appropriate. But you point out another problem, and that is at 
the local level and the state level, you are working with the 
FBI to do these threat and vulnerability assessments.
    We have a Department of Homeland Security that has that 
responsibility nationwide. So we are going down two separate 
paths, I guess, with two separate federal agencies.
    Because I suppose the FBI has a longer tenure with working 
with local governments, they are down there working with them 
and these task forces and groups that are created to try to 
deal with this. And yet, we have given, through the Homeland 
Security Act, the responsibility to the Department of Homeland 
Security, the IAIP Directorate.
    So we have some things that obviously need to be sorted 
out.
    Another thing that I have noticed, Director Mencer, when I 
tried to get a hold of three of four copies of State plans. My 
impression when I was reviewing them is that they vary widely 
in terms of their quality.
    For some of them, I think you could hire a graduate student 
at a good university and tell him or her that you need a State 
plan in the next 6 months, and you would probably get about 
what you get in some of these plans. I think there is a real 
need here--again--to try to sort out who is making the 
decisions.
    You expect to get a state plan from State governments that 
contains a threat and vulnerability assessment. You are now 
requiring that they link what they want to receive in 
assistance to a goal they have, which presumably is based upon 
a threat analysis.
    And yet, most of our states have very little capability to 
produce a real threat and vulnerability analysis. So I think 
the frustration that many of us are feeling is that we are 
spending millions of dollars in a very unfocused, misdirected 
way.
    Nobody really has settled out as to who is in charge, 
whether it is the IAIP or whether it is the FBI and the local 
task forces at the state level. We have not made those 
decisions yet.
    I think those of you who are closest to the issue should be 
able to see it even more clearly than we do, and should have 
some suggestions for us as to how we ought to sort that out and 
where those responsibilities should be placed. And I might ask 
Director Mencer to comment on that.
    Ms. Mencer. Sure, I would be happy to.
    We have allowed, in our allowable funds for the state's 
portion of the money going out, for administrative costs and to 
hire, if they need to, personnel to assemble plans and do 
whatever they need to do administratively in the state to 
manage that. In addition to that, we do have a validation 
project that is underway. We called in some states to look at a 
validation tool.
    So they have the next six-month period to validate their 
strategies and to make whatever changes they need to perhaps 
enhance them and make them a better product. We have also 
worked very closely with our technical assistance folks in ODP 
to help the states shore up or increase or better the document 
that they produced in the process, but after the fact as well, 
during this validation period.
    So we are making efforts to address your concerns. And I 
cannot speak for General Labutti obviously, for IAIP. But I can 
assure you that IAIP works very closely with the FBI at the 
national level, as well as at the state level with the joint 
terrorism task forces.
    So it is working. There is a cooperative effort at the 
national level too, without going too far into IAIP because 
that is not my area.
    Mr. Schrader. May I comment on that, sir? Because I think 
it is important, you have raised an important issue that I 
think, from the state's perspective, caught my attention.
    The state and private sector in the states own these 
assets. So we do not perceive IAIP as telling us exactly what 
we ought to be doing. We see them as partners in facilitating 
our thinking and helping us.
    We know--it is fairly self-evident--where the airport is 
and where the bridges are and where the tunnels are. And we are 
monitoring those things.
    So we would be distressed if there was a federal initiative 
to come down and tell us how to do it.
    Mr. Shadegg. The time of the gentleman has expired.
    The chair would call upon the gentleman from New York, Mr. 
King, for questioning.
    Mr. King. Thank you, Mr. Chairman.
    Director Mencer, I am still trying to work my way through 
the funding issue. And I have read the chairman's report and I 
was listening to his questions carefully this morning.
    And I say this with a bit of bias, coming from New York. 
Last year, we did begin the terminology of the high-threat 
urban areas. And the focus of that, the purpose of that, was to 
get the money where it was needed most.
    But I just question whether now that we have, I think, 30 
cities included in that, are we minimizing the impact, as the 
chairman said, by putting so many cities in? If you have 30 
cities that are high threats, how many of them really are?
    Are we spreading it out too thin? And when I look at the 
numbers from the chairman's report, I see, other than New York, 
of the other 29 cities of those 30, they have only drawn down 
five percent of the monies available to them.
    And I do not mean this in an argumentative way. But if they 
are at such high risk, why are they only drawing down five 
percent of the money?
    I can understand other areas of the country who may not 
feel that direct risk, why they would be a little slower in 
coming up with plans. But if you have 29 cities only drawing 
down five percent--I understand New York City has drawn down 
almost everything that it could possibly be getting--isn't that 
an indication of where the real threats are?
    And again, I am not trying to make just a case here for New 
York City. I am really making the case as to whether or not we 
are just focusing on urban areas or we are focusing on high 
population areas.
    And you can have an area where there is no population that 
can be under tremendous threat. You can have other cities, such 
as New York, which are always going to be under the gun.
    And I am just wondering: do you feel that you have the 
flexibility now, even before we pass our legislation, to 
address that? Because, you know, all of us are involved in 
politics. We all know what pork barrel legislation is about.
    We can make a mistake on a highway bill and send the money 
to the wrong place or a public works bill and somehow it will 
work itself out over the course of time. If we keep sending 
homeland security money to the wrong places now, it could be 
life or death.
    We really do not have that luxury of playing the pork 
barrel game or sending money just because more people happen to 
live there or they have two senators there.
    So I guess I am, in a roundabout way, asking you: do you 
feel that we can come up with a more targeted way of getting 
the money to the areas that need it, whether or not they are 
urban, whether or not they have high population, and a greater 
way of determining who needs the money the most, who is under 
threat?
    I know, like when it comes to the F-16s, we have a way of 
determining who is going to have F-16s flying over their area, 
as far as threats. Can we somehow incorporate the same logic 
into getting monies to the high-threat areas in the country?
    And that is a roundabout way of asking a very convoluted 
question. So I will let you answer any way you wish.
    [Laughter.]
    Ms. Mencer. No. Without belaboring the point on the 
drawdown issue, which we have discussed before, there are a lot 
of reasons why the urban areas have not drawn down the funds 
that they have obligated already.
    An obligation means that they have designated uses for this 
money. And because they have not drawn down yet, there is a lot 
of different reasons, some of which are equipment backlogs at 
the companies, because as you can imagine, these vendors that 
sell these products are overwhelmed with requests from the 
state for this equipment.
    There are also procurement issues. There are legislative 
issues. Some states require that all federal grants go through 
their legislative bodies. Their funding streams require that.
    So there are all kinds of issues. So I will not go any 
further with that. But that is an issue.
    Mr. King. Can I just ask you on that, though? I can accept 
all that to an extent. But as proud as I am to be from New 
York, are we that much more advanced than the other 29 cities?
    Ms. Mencer. Absolutely, sir.
    [Laughter.]
    Mr. King. Oh, okay.
    Ms. Mencer. Was that the right answer?
    Mr. King. Give her whatever she wants.
    I mean, seriously the point I am making is I am just 
wondering if the whole thing could not be expedited more for 
the others.
    Okay, I interrupted you.
    Ms. Mencer. No, I think you are right. I think we do look, 
when we expanded the urban areas, we looked at not just high 
density population. But it was a very complicated matrix, which 
included the threat information from the FBI and the 
intelligence community.
    So these other areas do have a risk associated with them, 
which is why they were included in the urban areas. So it is an 
all-inclusive process when we look at how to determine what is 
an urban area to be included in the grant process.
    Mr. King. Okay. Thank you.
    Mr. Shadegg. I thank the gentleman for his questioning.
    The chair would now call upon the gentlelady from the U.S. 
Virgin Islands, Ms. Christensen, for her questioning.
    Mrs. Christensen. Thank you, Mr. Chairman. And welcome, 
Directors Mencer and Schrader.
    Director Mencer, as I read your testimony, it seems as 
though I am seeing some of what we have been calling for 
through many of our hearings and what is included in H.R. 3266. 
Can I assume from that that the department supports our first 
responder bill?
    Ms. Mencer. I think I had a meeting with Chairman Cox the 
other day. And we talked about many issues in the bill. And I 
think there are some very good initiatives in there.
    And we are working closely with you all on that.
    Mrs. Christensen. That is not a real endorsement of our 
bill. But we will keep working on it.
    This question is to both of you. I think the reminder of 
the process that you gave, Director Schrader, that it is 
reimbursement, that the Brinks truck does not just stop and 
drop off the money, was helpful to have us really focus in on 
what may be happening with the money. And the money that is not 
being spent, where is the problem?
    Because we hear from, as we have traveled around the 
country, that the first responder agencies have sometimes spent 
the money and they are not being reimbursed. Is that where the 
problem is, that the fire, police, all of the first responders 
see the need? They are attempting to address the needs of their 
community with regard to homeland security and the 
reimbursement is not coming?
    And if that is the case, where is the problem? And what is 
being done to fix it? And that is a question for both of you.
    Mr. Schrader. Let me just start by saying it is almost, you 
have to take it on a case-by-case basis. What I have found, 
going around our state, is I hear similar things. But the 
reality is that we have allocated those decisions to the local 
jurisdictions to make.
    So for example, if a local jurisdiction decides they are 
going to focus their resources on a particular area, but a 
municipality in that jurisdiction is left out, then that 
municipality would say, ``We have not seen any of the money.''
    Mrs. Christensen. How fast do you reimburse?
    Mr. Schrader. We are in about a 60-day cycle.
    Mrs. Christensen. And your cycle with the department?
    Mr. Schrader. About the same. So once the invoice comes and 
we pay, it is a pretty rapid turnaround.
    I think a lot of the issue is in the decision process and 
the local processes of appropriating. Like, for example, you 
have a local council. A lot of the local councils, if their 
emergency director comes and says, ``We have been allocated 
$100,000 worth of authority. We want to spend this money,'' 
well, then they have to appropriate that through the local 
jurisdiction.
    A lot of them will be concerned about how that money gets 
spent. For example, they do not want to add additional cost 
that cannot be sustained.
    And so they are very careful about how that money is being 
spent. And then the procurement regulations, there is 
oftentimes an issue.
    Mrs. Christensen. I am going to come back to that.
    Mr. Schrader. Sure.
    Mrs. Christensen. But where is the problem? Is it that80 
percent of the money is still unspent? Is that--?
    Ms. Mencer. You know, I think it is less than that. But I 
think that is what the funding task force is looking at trying 
to resolve--not resolve so much as find out where these 
problems are and how to address them.
    So they are looking, in this funding task force, not only 
at identifying where the problems are, but where are the best 
practices, so that we can share this information with other 
states. There are some states that have done a great job of 
kind of getting around some of these procurement issues and 
kind of even passing legislation within their state to 
facilitate this process.
    And in some cases, that is what it might take, some 
legislative changes. Again, because we have never moved money 
this quickly, there are some procedures that are too slow to 
process.
    Mrs. Christensen. I do have a lot more questions, but I see 
my time is almost up. Let me just ask about the Urban Areas 
Security Initiative. I assume that is based on assessment of 
unique vulnerabilities of urban, high-density areas.
    Is that the case? Has that assessment been done? And has a 
similar assessment been done of rural areas and territories 
which have some unique vulnerabilities? And what can we look 
for, for initiatives for them?
    Ms. Mencer. In the first part, yes, those things are all 
looked at. It is the matrix I described earlier, where there is 
input from the intelligence community as to threats and 
vulnerabilities, as well as high population, critical 
infrastructure. All those things are included.
    And yes, we have been working with the territories as well. 
And certainly their strategies should have defined--and I am 
certain they did--particular risks, such as cruise ships and 
things of that nature, that you all deal with.
    So we do look at that in the state strategies as well and 
make sure that their requests match what they have defined as 
their goals and objectives.
    Mrs. Christensen. Thank you, Mr. Chairman. My time is up.
    Mr. Shadegg. The time of the gentlelady has expired.
    The chair would recognize the gentlelady from Washington, 
the vice chair of the full committee, Ms. Dunn, for 
questioning.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    I wanted to ask you, Ms. Mencer, if the administration 
supports allowing regions to apply for grants?
    Ms. Mencer. I think certainly under the Urban Areas 
Security Initiative, we have allocated money to regions. I 
think in Chairman Cox's bill, he discusses--.
    Ms. Dunn. That specifically.
    Ms. Mencer. Yes. I think that is a very good idea of a way 
to combine resources. And I commend that initiative. I think as 
long as--and we discussed this the other day--the states 
maintain the primary responsibility for the application process 
and the disbursement of these funds, particularly so we can 
coordinate these requests with the state strategies so we do 
have a unified effort in the state and the state does not lose 
control--or sight really, not control--but the management 
oversight over how these funds are being spent, so we do not 
duplicate effort. We do not duplicate the funds going out.
    Ms. Dunn. So that would be your caveat? As long as the 
state stays in control of the dollars, you support regional 
grants?
    Ms. Mencer. Well, certainly for me it would seem logical, 
that that would be a good thing. I think anytime, particularly 
when you look at what a weapon of mass destruction is, by 
definition it overcomes the capability of any one community to 
deal with it.
    So by necessity, I think all the states have gone to 
regional approaches within their state so that they can combine 
their resources at the state, local and federal level within 
the state to address an incident.
    Ms. Dunn. And so how would it work with Mr. Schrader's 
request for more analysts? Are the states capable of handling 
this kind of thing right now? Or would you share in information 
provided by the Department of Homeland Security?
    Or how would that work?
    Mr. Schrader. Well, a lot of the threats are local. So for 
example, if you are in the State of Maryland, we know there is 
a couple of hundred key assets. We have our seaport and the 
airport. Working with the FBI, what we need are analysts that 
can work with the local information to say,``Here are the three 
things that we need to be focused on in the next 30 days. And 
here are the targets.''
    So it is the targeting. So we are getting general threat 
information at the federal level. And of course, there is 
generalized information that is more specific information at 
the local JTTF.
    But if we had more analysts working with us in these joint 
centers, we could do more targeting. And that would be helpful.
    Ms. Dunn. In our legislation, we do away with the 
reimbursement policy, which in your report and in the report 
that we released yesterday, is a problem and results in the 
lack of spending that we have seen in our report. You mentioned 
that reimbursement policy.
    In our legislation, we would require the priorities of the 
region in how they would spend the money and so forth. How is 
this reimbursement policy causing you trouble in getting 
dollars down to the local levels, down to, for example, the 
small community that does not have any money to spend in the 
first place and has to wait around and wonders if it is ever 
going to be reimbursed by the government?
    How is that really working in a practical sense?
    Mr. Schrader. Well, we could make it work if we had to, so 
I do not want to suggest that it is an impediment. But what it 
does do is it makes it more complex for the local jurisdictions 
in that they have to legislate the money. They have to put it 
upfront. And then they have to apply through the process to get 
the money.
    I was in the Urban Area Work Group 3 weeks ago in 
Baltimore. And we were talking about their joint process to put 
a backup 911 center in.
    Well, then the discussion came around to, ``Well, you know 
this is reimbursable.'' And the folks in the room said, ``Oh, 
yeah, that is right. We had not thought about that.''
    So then we said, ``Well, which jurisdiction is going to put 
the money up first?'' So if we had the cash flow to be able to 
move on some of these initiatives, it would move faster. It 
would put a lot more responsibility on the state, which we 
would deal with.
    I think the problem is that the reimbursement process is 
not well understood. We are beginning to understand it at the 
state level. And we are pushing that word out.
    But down at the local level, grantsmanship is not something 
that they have a skill set in.
    Ms. Dunn. That is true. Final question to Ms. Mencer: you 
said in your testimony to us that it would be much easier to do 
one-stop shopping. Can you explain how this would be easier?
    How you would like to see that work? What needs to be done 
to make sure that it can work?
    Ms. Mencer. Yes, ma'am. I think the states, for practical 
purposes, I think already believe that our Office of State and 
Local Coordination and ODP are one office because we are 
together all the time on the conference calls. So that part of 
the consolidation, I think, is very understandable to the 
states and accepted.
    I think the part that is of interest to most people are 
moving some of these grants into ODP as well, as part of this 
consolidation effort. From a state homeland security director 
perspective--and I will defer to my deskmate here for any 
confirmation or not of that--I think it really helps to have 
one point to go to for all grants concerning preparedness.
    We have been able in ODP to consolidate some of the grant 
applications in this process. We now have consolidated our 
state homeland security grant, the Citizen Corps grant and the 
law enforcement terrorism prevention grant into one 
application. So that is a big help to the states as they 
looking at putting the pencil to paper kind of application 
process.
    But it is all computerized now. But you know, I think that 
has been a big help to the states. So that is what we mean by 
the one-stop shop, having one place for them to go for these 
grants.
    Hopefully, it will be a good thing. And I will defer.
    Mr. Schrader. Well, I think the more we can do that, the 
better. Actually, DHS sent us out, as part of their most recent 
initiative for program management, to give us their summary 
analysis of all the money they thought was out there.
    Fortunately, when Governor Ehrlich appointed me back in 
August, I had started doing the same thing, because we get 
money from CDC, HRSA. We got money in 2002 from DOJ because 
that is where the money was previously.
    FEMA puts money out for interoperability grants. So being 
able to consolidate and focus, I think in the long run will be 
a good thing.
    Mr. Shadegg. The time of the gentlelady has expired.
    The chair would now call upon the gentleman from North 
Carolina, Mr. Etheridge, for questioning.
    Mr. Etheridge. Thank you, Mr. Chairman. And I apologize for 
bouncing in and out, but I have another hearing going on at the 
very same time this morning.
    Ms. Mencer, if I may for you, please? North Carolina is one 
of those states that has extensive experience, unfortunately, 
in floods and hurricanes and ice storms. And the list is long--
tornadoes.
    So we have had a lot of experience in it. And we sort of 
take an all-hazards approach to our preparedness.
    And with the consolidation of most emergency response 
grants into the Office of Domestic Preparedness in the 
Department of Homeland Security has become one of the sole 
sources of federal preparedness funding for most states and for 
ours as well. The administration's budget reduces state 
flexibility. And restrictions are put on much of the funding. 
And it is targeted really toward terrorist activities.
    If you are a local unit of government and have a flood or a 
tornado or a hurricane or whatever and you have lost 
everything, it does not make a difference who does it.
    Whether it be intentional or by natural disaster, you have 
a disaster. And you have some of the same problems associated 
with it.
    And I recognize that anti-terrorism must be the highest 
priority of the department. I do not think any of us disagree 
with that.
    But is it the administration's intention that states and 
municipalities bear the entire cost of natural disaster 
planning, training and the response? And if not, how does ODP 
believe states should balance their responsibilities?
    Ms. Mencer. Yes, sir. I think on a couple of points here 
you are correct. I think in a lot of cases, when it is not a 
tornado or a flood or a hurricane and you do not know the cause 
yet, then certainly the response is the same.
    If there is an explosion and you do not know if it is a 
man-made explosion or a gas leak or something of that nature, 
so the response is the same. I think you are absolutely correct 
in stating as well that the number one priority of the nation 
right now is terrorism and to detect, deter and respond to a 
disaster such as that.
    I think anything we do for terrorism helps with the natural 
responses as well. Because in most cases, communication is the 
key. And I think that the dollars that are being spent in 
terrorism preparedness and response capabilities will enhance 
natural disaster responses as well.
    But indeed, the states do have to assume some financial 
responsibility for preparing themselves for the everyday 
occurrences that they have always done.
    Mr. Etheridge. All right. That being given, under the 
current funding, the President's proposal will have significant 
impact, I think, on emergency preparedness on the state level 
because currently they can have pretty flexible dollars.
    Under the current proposal, only 25 percent of the grant 
funds will be available at the state level to support state and 
local emergency management personnel salaries that are 
critical, having personnel on the ground to respond, whether it 
be terrorism or otherwise. As I have said currently, in March 
of 2003, a survey by the National Emergency Management 
Association found an additional 5,212 local emergency 
management positions were needed nationwide, with 3,960--or 76 
percent--of those positions being full-time directors needed 
for a host of issues.
    Under Secretary Brown and others have informed this 
committee that the limitations on the use of EMPG grant funds 
for personnel costs will result in increased state and local 
training funds and exercise money. My question is: without 
effective people on the ground, even though we have training 
money, how will they be able to participate in training and 
exercise if we do not have people to participate in training 
and exercise?
    Ms. Mencer. Yes, sir. And I hear you. And I have heard the 
concerns--.
    Mr. Etheridge. Well, I understand you hear me. But what we 
really need are some answers.
    Ms. Mencer. Right.
    Mr. Etheridge. And I hope you will take that back to some 
folks to understand that it is fine to say we are getting more 
money. But if we are taking the money from another pot that is 
absolutely imperative that we use, at the end of the day, we 
are not any better off. And we may be worse off because we do 
not have people on the ground to do the job.
    Ms. Mencer. And I commit to you that I will take that back.
    Mr. Etheridge. Will you follow that up and get back to me 
with a written answer, please?
    Ms. Mencer. I will, indeed.
    Mr. Etheridge. I thank you.
    Ms. Mencer. You are welcome.
    Mr. Etheridge. Mr. Schrader, for you, in your testimony, 
you also commented on the need for the EMPG to maintain 
flexible funding for personnel costs.
    Mr. Schrader. Exactly.
    Mr. Etheridge. I hope you will comment, because you have 
some experience at it, as how this 25 percent restriction is 
going to affect your state. I know how it affects mind.
    I think people need to understand what this does and where 
we wind up.
    Mr. Schrader. Well, our state strategy revolves around an 
all-hazards approach.
    Mr. Etheridge. Right.
    Mr. Schrader. We need those people on the ground because 
they are the infrastructure that we rely on. We do not have a 
homeland security workforce and an emergency management 
workforce.
    We are double tasking those folks. So therefore, we need to 
actually expand their capabilities and give them more money and 
more training.
    But at a minimum, we have to maintain what we have. If we 
start to reduce that workforce, we are going to lose our 
ability in the local jurisdictions to execute these programs.
    Mr. Etheridge. Thank you, Mr. Chairman. I appreciate that. 
And I just want that on the record. And I hope others in the 
committee--I think it is important to understand that the 
department has a charge.
    But the important thing is to understand that there are a 
lot of other things that these local jurisdictions have to do. 
And they cannot have two different groups.
    And we have to understand that as we are reaching down, as 
we put out administrative rules and policies, because otherwise 
it will impede and put us in a position of not getting the job 
done we really want to get done because of the other things we 
have to do.
    Thank you, Mr. Chairman.
    Mr. Cox. [Presiding.] I thank the gentleman. The 
gentleman's time has expired. The gentleman from Pennsylvania, 
Mr. Weldon, is recognized.
    Dr. Weldon. Thank you, Mr. Chairman. Thank you both for 
testifying.
    Mr. Chairman, as I read through this testimony, Ms. Mencer, 
one item catches my attention and will be the focus of my 
discussion. Because ODP is urged by the inspector general to 
accelerate the development of federal guidelines for first 
responder preparedness, including capability levels, equipment, 
training and exercises.
    You know what really amazes me? The first responders in 
this country have been here longer than the country has been a 
country.
    There are 32,000 organizations in America that are 
organized. Many of them do not belong to any government. They 
are private non-profits.
    They have been responding to every disaster this country 
has had longer than the country has been a country. And they 
have not had to have federal guidelines on how to do their job.
    I was the fire chief in a town of less than 5,000 people in 
1974. We had the largest incident in America. Two ships 
collided.
    Twenty-nine people were killed. It burned out of control 
for 3 days. And 80 other departments responded.
    We did not have to have ODP come in and tell us how to do 
our job. That could have been a terrorist attack.
    And I resent the idea that somehow the federal government 
is going to come in and tell these people, because for all 
these years they have not known how to do their job. And that 
is the attitude that the emergency responders in this country 
receive, that somehow Washington is now going to come in, even 
though they have handled blevies on rail lines, even though 
they have handled hazmat incidents, even though they had fires 
in chemical plants that have been as toxic as any chemical 
weapon that mankind could create.
    Even though they have handled all of that, all of a sudden 
now, the federal government knows how you better do your job. 
And you better pay attention.
    And so in the end, I have to ask the question, as I travel 
around the country--and I have been on almost every disaster we 
have had since I have been here in Congress. I ask the first 
responders: how are we doing? And they look at me and they 
laugh.
    They said, ``Are you kidding me?'' The first 30 minutes to 
an hour in any incident are the most critical. You are not 
going to have an ODP person on the ground that first hour.
    You are not going to have a FEMA bureaucrat. You are not 
going to have an inspector general.
    When the sarin gas attack occurred in Japan, the first hour 
determined how many people were overcome by sarin gas. When 
Chief Marrs arrived in Oklahoma City at the Murrah Building, it 
was the first hour that determined how successful he would be.
    And you know what, Mr. Chairman? We still do not have the 
basic answers available to them.
    Let me just give you some examples. I was in your state, 
Landers/Big Bear Northridge earthquake. And I am walking the 
freeway that had sandwiched on top of itself with the fire 
chiefs of Oakland and San Francisco.
    Was that 12 years ago? And I said to the chiefs, ``Why 
aren't you using thermal imagers, using dogs to try to find 
people that are trapped in these vehicles?'' And the two chiefs 
said, ``What are thermal imagers?''
    I said, ``Well, the Navy developed them 10 years ago to 
find people on ships that might still be alive.'' The federal 
government had not even told of the technology available to 
first responders.
    So I came back from that incident and I introduced 
legislation to create a computerized inventory of assets that a 
first responding chief could have in his hand, so when he 
arrived--whether it was Chief Marrs in Oklahoma City or the San 
Francisco or Oakland chief in that incident--if they needed a 
structural engineer, if they needed a sensor, to plug it in and 
know where to get it.
    Do we today have computerized inventories available for 
first responders? Is it available?
    Ms. Mencer. Yes, I believe it is, sir.
    Dr. Weldon. No, it is not.
    Ms. Mencer. Computerized, no. We have lists though of--.
    Dr. Weldon. Twelve years ago, I introduced legislation to 
create a national computerized inventory so when a chief 
officer arrives on the scene, whether it is a terrorist 
incident or a man-made disaster, where do I go to get 
structural engineers? Which federal agency can give me thermal 
imagers?
    Who can I get to get a specialized testing capability in 
here? We still do not have it. And we play these games with, 
``Well, we have this protocol. We have that study underway.''
    Let's answer the most basic question from the bottom up.
    That is where the answer.
    They know what to do. They know how to respond. They need 
the training resources. They need the dollars to buy the 
equipment. They need us to get out of their way.
    I think of communication, when Tom Ridge was in office, the 
first week he was in, I met with him because he is a friend of 
mine. I said, ``Tom, you have to do two things. We have no 
integrated domestic emergency communication system for our 
first responders.''
    And here we are, 3 years later. We still do not have an 
integrated domestic communication system for a number of 
reasons: lack of frequency spectrum allocation and lack of 
funding to implement a broad, integrated communication system. 
It was Chief Marrs' biggest problem in Oklahoma City.
    So I guess I get down to a fundamental question: why don't 
we cut through all the--excuse my French--bullshit and listen 
to the first responders who have been telling us, for the last 
20 years, what they need? And for the state bureaucracies that 
take the money and build big bureaucracies and not give the 
money down to the locals is outrageous.
    Now does that mean we should allow them to buy anything 
they want? To have a fire company buy a $500,000 truck they do 
not need? No. And that is why planning is so important.
    But I can tell you, in the years that I have seen, 
especially since 9/11, our attempt at responding to the first 
responder has been outrageous. And I can only say to you both--
and I think the gentleman from Maryland knows the power of his 
fire service very well and the emergency response community 
because it is very strong in your state and does an excellent 
job.
    Do you know we have no ODP funding for fire training 
centers in the country? The primary training center for these 
first responders in every state are the state fire training 
centers. You have a great one in Maryland.
    Do you know we cannot use ODP funding for that? So why 
don't we cut through the BS. That is what the firefighter grant 
program did. Would you agree that is one of the most successful 
programs we have ever created?
    Mr. Schrader. Very successful, very popular in our state, 
yes.
    Dr. Weldon. Very popular, because the money goes directly 
to those people who have their necks on the line to respond, 
whether it is a small town or a big city.
    Mr. Chairman, I am sorry for expressing my sense of 
frustration. But it is very real to me because I would not be 
in this job were it not for these people. And it frustrates me 
to see us spinning wheels about how to get money.
    And I know you are trying to do a good job with your 
legislation, which I fully support. We have to find a way to 
have the local emergency response leaders, who are going to be 
the first people on the scene in every incident, have the 
tools, the equipment, the training and the resources they need. 
And I do not think the federal government should be able to 
tell them how to do that. Thank you.
    Mr. Cox. The gentleman's time has expired. The gentleman 
has done more work on first responders than anybody in Congress 
that I can think of, except possibly Mr. Pascrell, who is 
recognized.
    Mr. Pascrell. Well, I want to say to Mr. Weldon, comma, not 
period. I want to continue, if I may, if you will allow me that 
opportunity.
    This to me is a sham. And I am sorry we have to go vote 
now. But the budget's program assessment rating tool--get this, 
Curt--declared that ``the fire grant program is unfocused and 
has not demonstrated its impact on public safety.''
    This is a fraud. And the fact is that this program has 
positively impacted--ask the firefighters, please--public 
safety by providing $2 billion for such things as-unfocused!--
infrared cameras, hazmat detection devices, improved breathing 
apparatus, advanced training and fitness programs, fire engines 
and interoperable communications system.
    Now I want to give you an example. I want to give you an 
example. I think it is a good one. And I do not care if I miss 
the vote. I am sorry, comma.
    The leading cause of firefighter death in America, do you 
know what it is, Ms. Mencer? Do you know what the leading cause 
of death is to firefighters?
    Ms. Mencer. Heart attacks?
    Mr. Pascrell. I am sorry?
    Ms. Mencer. Heart attacks.
    Mr. Pascrell. That is correct. Thank you. It occurs either 
at or returning from a fire. In my district of Bloomfield, New 
Jersey, firefighter Dan McGrath can tell you a thing or two 
about the need for cardiac fitness.
    When McGrath went to his physical, mandated--and you are 
taking this out of the Fire Act. Oh yeah, you care about fire 
responders. You really do.
    A physical mandated program, funded by the 2002 Fire Act, 
the fire grant, it was discovered that he needed immediate 
heart surgery. No one had any idea he was in danger prior to 
that physical. He did not certainly.
    He had successful bypass surgery and valve replacement 
surgery and is on the job today.
    With all this in mind, why would the President's budget 
request, which you are here to defend, eliminate funding for 
programs to enhance the level of cardiac fitness among 
firefighters? And I am waiting for a good answer.
    Ms. Mencer. I believe that the focus for the Fire Act 
grants are on the items that we consider to be priorities in 
view of the terrorist acts in the Homeland Security Department, 
which is training and safety equipment for firefighters.
    Mr. Pascrell. Do you know that you have eliminated nine of 
the 14 categories? And that is one of them? Do you know that?
    Ms. Mencer. Yes, sir.
    Mr. Pascrell. Well then, how can you simply say that you 
are taking that into account? You have eliminated it in the 
President's budget. You have eliminated nine of the 14 
categories that were funded directly to local communities.
    No bureaucrat, no state bureaucrat can skim off the top. It 
is the most successful program, like the COPS program.
    You are cutting this program by $250 million. You are 
cutting the COPS program, which has nothing to do with you, by 
$660 million. This is an absurdity.
    Do you know Exhibit A, B, C and D? Exhibit A, fire 
departments across the country have only enough radios.
    I know you guys want to end it now, but let me finish 
because this is important to me. I was a mayor and I was on the 
line when these guys and gals gave up their lives. So you are 
not going to put this into a political situation.
    There is not enough radios to equip half the firefighters 
on a shift. And breathing apparatuses for only one-third of all 
the firefighters in this country.
    Police departments in cities nationwide do not have the 
protective gear to safely secure a site following an attack 
with weapons of mass destruction. Most cities do not have the 
necessary equipment to determine what kind of hazardous 
materials emergency responders may be facing.
    All terrorist incidents are local. That is what Curt Weldon 
was saying. They are local. At least we can start at that 
particular point.
    How can you, in good conscience, cut the Fire Act? How can 
you, in good conscience, say it is unfocused?
    How can you simply try to communicate to the American 
people when you know quite well that not too long ago, former 
Senator Warren Rudman said, ``The United States remains 
dangerously ill prepared to handle a catastrophic attack on 
American soil?'' And in three instances, that has been 
supported. And let me tell you where the incidences are.
    The report of an independent task force sponsored by the 
Council on Foreign Relations: ``emergency responders 
drastically underfunded,'' et cetera. That came out in June of 
2003.
    The fourth annual report to the President and the Congress 
of the advisory panel to assess domestic response capabilities, 
that came out December 16, 2002. And the General Accounting 
Office, their own report: ``grant system continues to be highly 
fragmented,'' April 2003.
    We have this. It is documented. We do not even have a 
national assessment of where we are most vulnerable.
    And darn it, I have a right to be angry today because I am 
talking to someone who is very bright and knows--you are the 
messenger. I know that.
    But we are not going to take it anymore. We are not going 
to take throwing across the screen that we are safer now than 
we were before when we do not even have a coordinated effort. 
We zeroed in into interoperable communication. Zero amount of 
dollars.
    When you heard Mr. Weldon say it is the most critical 
problem facing us today, how do you explain this to the 
American people? You tell me.
    Mr. Shadegg. [Presiding.] The chair appreciates the 
gentleman's passion. His time is expired.
    Mr. Pascrell. It is not just passion. It is facts. Passion 
without facts is meaningless
    Mr. Shadegg. The chair appreciates the gentleman's passion 
and would like Ms. Mencer to be able to answer the question.
    Ms. Mencer. Yes. For the first regard, as far as the 
funding being reduced, I just want to point out that it is 
equal to the funding request of the 2004 budget, showing the 
secretary and the President's commitment to the firefighting 
community.
    It was funded for more than that in 2004. But our request 
remains the same.
    And as to your other comments, sir, I understand your 
concern. And I think it has long been the responsibility of 
each of us to make sure our health insurance is current and 
that we have sufficient for our safety and our public health 
concerns.
    And I think that remains the focus of the Fire Act monies. 
By their own request of the fire agencies that we consult with 
for the Fire Act, they have stressed the terrorism aspect of 
these funds for this year. And indeed, that reflects it in the 
budget.
    Mr. Pascrell. Mr. Chairman?
    Mr. Shadegg. The chair would like to--.
    Mr. Pascrell. If I may? One final comment.
    Mr. Shadegg. A brief comment, as opposed to a question, 
certainly.
    Mr. Pascrell. Mr. Chairman, the melding of programs is one 
of the biggest gimmicks tried by both political parties over 
the last 30 years. When you meld it, you lose it. It is the 
easiest way to do it, so you do not ever have to have a 
proposition to do away with the Fire Act.
    Put the Fire Act and move it, a successful program. You cut 
it by $250 million when you need we should be going to $1 
billion from the $750 million that we have.
    You meld it into terrorism. The Fire Act occurred before 9/
11. These are basic needs that fire departments--small and 
large--need.
    And if we are not going to respond to the basic needs, Mr. 
Chairman, we are not going to prepare America. Thank you.
    Mr. Shadegg. Certainly.
    As the gentleman well knows, the ultimate responsibility 
for the budget remains with the Congress. And again, I 
appreciate his passion and his concern. And Ms. Mencer is the 
messenger. I think she heard the message.
    I want to thank both of our witnesses for their appearance 
here today. I think this has been a healthy and productive 
dialogue.
    Ms. Mencer, I recognize that you were just confirmed in 
September of last year. You are new to this job. And indeed, it 
is a very challenging task.
    The gentleman, Mr. Pascrell, mentioned that the melding of 
departments, he went on to say, is a way to get rid of them. I 
thought he was going to say it is one of the toughest things 
you do in government, because that is what is happened here in 
the Department of Homeland Security.
    We have melded 20 parts of--or all of--22 government 
agencies. And I frequently say in this town that the second 
toughest job in the entire town is that of your boss, the 
director of the Department of Homeland Security.
    I think this is a massive undertaking. I will tell you, I 
at times have been critical and would like to have seen the 
department do better. And I would like to see it continue to 
improve, as would the American people.
    But I want to commend you. I know you bring great 
experience here.
    Mr. Schrader, I was very impressed with your testimony. I 
was a colleague, when I came in as a freshman, of your boss, 
the governor, Bob Ehrlich. I think he has done a superb job in 
selecting you for the task. And I commend you on your hard work 
and appreciate both of you doing your jobs.
    It is a difficult task. The sorting of these priorities is 
a challenge for the Congress. And we will do our best, with 
your input.
    And we certainly appreciate your testimony and your efforts 
on behalf of the people of America. We are in new times. And 
these are challenging and different.
    We have never faced this kind of threat to our nation 
before. And you have been tasked with the front line job of 
doing it and of sorting out all of those issues.
    And as you saw the passion of two of my colleagues, one on 
each side, people get wrapped up about these issues. People who 
carry a single interest in the United States Congress and who 
believe it is their job, for example, to work for one 
particular interest can become extremely passionate about that 
interest.
    And I think we have seen a little bit of that here today. 
And it is true that all great things, I think, are accomplished 
by people who act with passion on a single-minded focus.
    Both of the gentleman who have just spoken are passionate 
about that issue. They are experts in that field. They care 
deeply about it. And I think we appreciate their testimony.
    That does not mean that you do not have a tough task and 
that you are not doing your best under extremely difficult 
circumstances. I want to thank you both.
    I think it was tremendous to have both the department's 
perspective, kind of looking down on this process, and the 
perspective of a state director, looking up. I think that has 
provided us with great perspective on a tough issue.
    I am very pleased and hope that the press reports 
accurately that headlines like this that say, ``Eighty Percent 
of Homeland Security Funds Have Failed to Reach Local 
Agencies,'' I hope that from this hearing, Americans will 
understand that is not true, that in point of fact, it is a 
much finer point; and that is, 80 percent perhaps have not been 
spent and that there may be, as you pointed out in your 
testimony, both good and bad reasons for that.
    I think the American people want these funds spent 
properly. And Mr. Schrader, as I think you pointed out, this is 
a whole new process. It is like trying to set up something that 
has never existed before and address a brand new issue.
    The notion that it could be done overnight and done 
properly, I think, is silly.
    Ms. Mencer, in your testimony, I think you made that very 
point. The department has concluded it is better to roll this 
money out a little slower than we had hoped, but to spend it 
wisely. And I think the American people would agree with you on 
that.
    So I appreciate your being here and your testimony.
    Members of the committee will have additional questions for 
the witnesses which they may submit to you in writing and which 
we would ask you to respond to. And the hearing record will be 
open for 10 days.
    With that, this hearing is adjourned.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


 Questions and Responses for Director C. Suzanne Mencer, Submitted for 
                               the Record

               Questions from the Honorable John Shadegg

Question: 1. What is the current status of the assessment that focuses 
on barriers and obstacles that independent or non-government EMS units 
are facing in receiving DHS first responder grant funds that was 
mandated in the FY 2004 Homeland Security appropriations bill?
    Response: The Department's Office for Domestic Preparedness (now 
the Office of State and Local Government Coordination and Preparedness 
, OSLGCP) was tasked with drafting this report. This report was 
delivered to the House and Senate Appropriations Committees on June 15, 
2004.

Question: 2. Concern has been raised that OSLGCP regulations are 
written without taking into account the unique geographical differences 
of the Western US. One example is that the current UASI definition of a 
core city and its contiguous counties. In the West, very few cities 
overlap counties, but a county may have a dozen cities. What is being 
done to correct these sorts of anomalies for the future?
    Response: OSLGCP has incorporated flexibility into the 
implementation of its guidelines by ensuring State and local 
participation in the final definition of urban areas. OSLGCP selects 
the core city based upon a risk analysis and nominates a corresponding 
core county in order to help build viable regional prevention, 
response, and recovery systems. The core county is defined as the 
county that the core city resides within either geographically or 
politically. The State, core city, and core county then further define 
the urban area to ensure it incorporates all appropriate jurisdictions 
and mutual aide partners. The respective State, core city, and core 
county make the final determination on defining each urban area.

Question: 3. What is OSLGCP doing to communicate and coordinate with 
EP&R on the assets that cities, counties, and states are purchasing 
with SHSGP and UASI monies? Are you working on a comprehensive, 
nationwide, state-by-state inventory of first responder assets? If a 
terrorist attack were to occur in Phoenix tomorrow, would you know what 
response assets exist in the City, contiguous cities, Maricopa County, 
or the State of Arizona? Would FEMA/EP&R know?
    Response: Most OSLGCP efforts and programs are focused on capacity 
building at the State and local level. We gather information on 
capabilities, and the impact our programs have on those capabilities, 
through the Homeland Security Assessments and the resulting State and 
Urban Area Homeland Security Strategies. These multi-year strategies 
and assessments were updated in the fall of 2003 and steer all of the 
funding provided by OSLGCPP to States and urban areas with an emphasis 
on identifying and enhancing prevention, response, and recovery 
capabilities at the State, local, and regional levels. This assessment 
and strategy development process was a comprehensive effort that took 
approximately nine months to complete and required the participation of 
all States, Territories, and the District of Columbia, and their 
respective local jurisdictions. The reported data illustrates how 
States and urban areas allocate grant funds and define benchmarks for 
monitoring their impact, and this information is provided to OSLGCP 
regularly. FEMA actively participated in the design of the assessment 
and strategy development process. Additionally, they were an integral 
part of the intra-DHS review board that reviewed and adjudicated all 
State and Urban Area Homeland Security Strategies. As such, FEMA has 
access to all OSLGCP data of current State and Local capabilities and 
shortfalls.
    As the automated data demonstrating the impact of the FY 2004 funds 
becomes available, OSLGCP can share it with FEMA to enhance their 
situational awareness.
    The Emergency Preparedness and Response Directorate is completing 
the Federal Response Capability Inventory. State and local 
jurisdictions have inventories of existing capabilities and resources. 
They will be expected to update and compare those inventories to the 
Baseline Capabilities Lists for the appropriate Tier, in order to 
develop their Required Capabilities Lists in Fiscal Year 2005. The 
Baseline Capabilities Lists are being created as part of the National 
Preparedness Goal required by Homeland Security Presidential Directive 
(HSPD)-8.
    Additionally, DHS, through FEMA and the National Incident 
Management System (NIMS) Integration Center, is conducting a resource 
``typing'' project to standardize descriptions and characteristics of 
common response teams and equipment. Resource typing ensures accuracy 
when incident a managers are requesting or providing resources through 
mutual aid. For example, a ``fire department strike team'' will be the 
same, whether it comes from an adjoining city or several states away. 
To date, resource typing is complete for 120 of the most commonly 
exchanged resources, including personnel, teams, and equipment. 
Resource typing provides the foundation for a comprehensive inventory 
of federal, state, and local response assets. A resource ordering, 
tracking, and status system is an essential part of the NIMS. States 
and local jurisdictions may use their FY 2005 SHSGP and UASI funds to 
develop or update resource inventories in accordance with FEMA's 
resource typing. At the federal level, DHS, through FEMA, is developing 
a federal inventory of response resources, based on the resource typing 
definitions.
    OSLGCP will provide national guidance to the States and those urban 
areas presently participating in the Urban Area Security Initiative, 
including the Baseline Capabilities Lists, organized by Tier, and 
metrics, after the President reviews and approves the National 
Preparedness Goal.

                Questions from the Honorable Curt Weldon

    1. ODP is now funding State training courses and its own 
specialized courses for first responders. Currently, almost all 
volunteer and career firefighters are trained at state and county fire 
training facilities. These facilities are the principle sources for 
testing and evaluating equipment, experimenting with new response 
techniques and they were the first to provide WMD training. However, 
these existing resources are not receiving any funding from ODP or the 
States.

    Will the ODP take a good look at the fire training facilities at 
the state and local levels to perform WMD and other terrorist 
preparedness training? The Department should utilize these experienced 
and trusted assets to prevent redundant and inadequate alternatives.
    Response: OSLGCP concurs that states and UASI areas should 
integrate existing public safety academies into the state training 
implementation plans. Since Fiscal Year (FY) 2003, the use of the fire 
training academies has been addressed in grant application guidance 
from OSLGCP. State and local training efforts should reinforce the use 
of state and metropolitan fire training academies along with other 
state and local academies, junior colleges, community colleges, and 
technical colleges. . However, to avoid dictating the training process 
to the states, OSLGCP provides funding directly to the state, not the 
state fire training academies. Thus, the state manages who conducts the 
training.

    2. Both the Inspector General and Select Committee on Homeland 
Security Committee reports on first responder funding identify 
Reimbursement systems as a principle source of delay to get new 
equipment and training. Under the current system, to what extent are 
states able to use federal homeland security grant funds in order to 
front the purchases for local governments?
Response: Through FY04, OSLGCP grant guidance required grant funds to 
be expended on a reimbursement basis, but this policy was modified for 
FY05.
    Fiscal Year 2004 grant guidance requires states to obligate 80% of 
funding to local units of government within 60 days. This funding is 
provided in the form of a sub grant award, which allows local units of 
government to make equipment purchases, accomplish planning, or make 
training or exercise decisions. If a locality makes a request to the 
state for them to hold monies on their behalf, the local unit of 
government may enter into a Memorandum of Understanding (MOU) with the 
state, whereby the state centrally purchases equipment or other 
services (such as training and exercises) on the locality's behalf. 
This MOU must be initiated by the local unit of government, and must 
specify how much money is being held by the state and the purpose of 
the MOU. This will allow states to alleviate some of the financial 
strain on local units of government.
    The FY 2005 DHS Appropriations Act exempted several state and local 
grant programs from the Cash Management Improvement Act, though a 
similar change could also be made administratively. In keeping with 
this exemption, SLGCP grant guidance for the FY 2005 Homeland Security 
Grant Program allows grantees and subgrantees to drawdown funds 120 
prior to expenditure as opposed to the previous 3-5 days prior to 
expenditure.

    3. Both the Inspector General and Select Committee on Homeland 
Security Committee reports on first responder funding identify a lack 
of communication from the federal government on intelligence and risk-
based priorities as a source of confusion with what must be purchased 
and where it should be located. What is the Department doing to correct 
this problem? To what extent will the proposed national preparedness 
plan take into account the individual risks, hazards, characteristics 
and other qualities that are only known by the local responders?

Response: Part I:
    As a requirement to receive their Fiscal Year 2004 Homeland 
Security Grant Program funds, and additional funds in FY 2005, states 
conducted threats and vulnerabilities assessments and, based on that 
information, developed homeland security strategies. The states were 
required to provide completed homeland security strategies to the 
OSLGCP on January 31, 2004. OSLGCP provided comprehensive guidelines, 
and conducted regional workshops, to assist that States in 
understanding the State Homeland Security Assessment and Strategy 
Process (SHSAS) and conducting the assessments and developing their 
strategies.
    These strategies are critical resources to the states in their 
efforts to distribute funds in the most effective manner to address the 
homeland security needs. The SHSAS process also provided States and 
localities the ability to determine their homeland security needs and 
assess their gaps in preparedness. Based on these assessments, States 
and localities could make informed decisions on the types of equipment 
that they could purchase with their OSLGCP funds to meet their 
identified needs and vulnerabilities.
    These strategies are also extremely important because they allow 
the Department to match the preparedness needs as outlined in the state 
homeland security strategies with resources available from the federal 
government. The information provided in these strategies will allow the 
Department to make informed decisions on how funds will be distributed 
and what factors the Department will use to make this determination. 
Per HSPD-8, to the extent permitted by law, adoption of approved 
Statewide strategies will be a requirement for receiving Federal 
preparedness assistance at all levels of government by September 30, 
2005.

    Part II:
    One of the objectives of the national preparedness plan as required 
under Homeland Security Presidential Directive-8 (HSPD-8), is the 
review and approval of ``all hazards'' state strategies. Building on 
the present OSLGCP model for comprehensive strategies based on CBRNE 
threats, the Department has established HSPD-8 ``Integrated Concept 
Teams'' (ICTs) to develop and implement a process for the submission, 
review and approval of all hazards based state strategies. These 
strategies would require local jurisdictions to provide information on 
threats, vulnerabilities, needs and capabilities as matched against the 
readiness metrics and national preparedness goal established by HSPD-8. 
The local jurisdictional assessment, using the data that is best 
identified by the local responders, would be sent to the states for 
their review and analysis. Using this ``bottoms up'' approach, states 
could then craft a comprehensive strategy that outlines the type of 
equipment, training, planning and exercises required within that state.

    Part III
    Under the Information Analysis and Infrastructure Protection 
Directorate, the Office of Infrastructure Protection (IP) is 
responsible for the protection of critical infrastructure and key 
resources (CI/KR). The Buffer Zone Protection Program (BZPP) is 
intended to extend the zone of protection--the buffer zone--around 
specific critical infrastructure and key assets from the site perimeter 
into the surrounding community. Working with State Homeland Security 
Advisors, IP is providing material and technical assistance to state 
and local law enforcement and first responders responsible for the 
protection of CI/KR within their jurisdiction. IP provides templates, 
training, and on-site assistance when necessary to help state and local 
law enforcement and first responders develop and implement BZPPs. This 
focused program identifies specific assets and assists local entities 
in developing detailed mitigation strategies, thus providing 
comprehensive information intended to improve the protection of CI/KR.

    4. The Inspector General report recommends a consolidation of all 
first responder grant programs as a means of simplifying the planning 
process performed at the state level. Does this include terrorism and 
non-terrorism related grant programs for first responders? If so, does 
the Department prefer the non-terrorism programs to be based upon a 
risk-based assessment with a terrorism focus?
    Response: The Secretary has provided for the consolidation of 
several first responder grant programs through the consolidation of the 
Office for Domestic Preparedness (ODP) and the Office of State and 
Local Government Coordination (OSLGC) into the Office of State and 
Local Government Coordination and Preparedness (OSLGCP) in March of 
2004. This consolidation provides a ``one stop shop'' for preparedness 
grants within the Department of Homeland Security and streamlines the 
process for state and local jurisdictions to apply for these grants.
    Within the OSLGCP, there are grants that cover terrorism, such as 
the Homeland Security Grant Program (HSGP) and the Urban Areas Security 
Initiative (UASI). There are other grants that address terrorism as 
part of their ``all hazards'' approach, such as the Citizen Corps 
Program (CCP) and the Emergency Management Performance Grants (EMPG). 
OSLGCP incorporated both terrorism and all hazards grants within a 
single grant application for FY 2004 and FY 2005.

    5. The Assistance to Firefighters Grant Program awards fire 
prevention and fire safety grants to nonprofit organizations to fund 
great programs such as burn research, education in schools, smoke alarm 
distribution, and many other things. Congress never intended for this 
program to require a funding match because these non profits such as 
the Burn Foundation are not affiliated with the state or local 
governments and operate on a shoe-string budget. This past month, your 
office began announcing this year's awards and changed the rules--with 
no notice--to require a hard match. Due to this abrupt change in 
policy, I am hearing that critical programs will be rejecting grants 
because they are unable to come up with 30% of the funding.
    Why did your office decide to make this rule change with no notice 
and no consultation with the fire service organizations? Do you intend 
to continue to make rule changes to fire fighter grants with their 
consultation?
    Response: The grants to which you refer are actually associated 
with the Fiscal Year (FY) 2003 appropriation. The decision to require 
the cash match was a decision emanating from the FEMA's General Counsel 
Office, before DHS was created, which reads the authorizing statute as 
requiring this cash match. Indeed, they believe that it should have 
been required from inception. The requirement however, was not 
established at the time of the awards, but was included in the program 
requirements listed of the Program Guidance (October 14, 2003) and 
Federal Register notice (68 FR 59947-59948, October 20, 2003), both 
published last autumn. OSLGCP will continue its coordination and 
collaboration with the fire service, the USFA and FEMA in its 
implementation of the FY 2004 prevention and safety grants. We will do 
everything we can within the law to maximize applicant opportunity and 
be competitive for grant awards. The Administration is aware that 
existing cash match requirements have posed an obstacle for some 
recipients of these grants.

    6. Q01716: There is a concern that the Department of Homeland 
Security is not paying enough attention to existing technologies that 
have a proven track-record of deployment and field operation. While it 
is imperative that the Department have a robust research and 
development program (R&D), present day solutions are available for many 
of the Country's security needs. There are a number of examples of 
readily available and deployable technologies exist on the commercial 
market that can and should be used today that address this very issue 
of data collection and real time dissemination for use in emergency 
response. Please describe the Department of Homeland Security's policy 
for fielding off-the-shelf technologies despite the fact that they may 
not provide a 100 percent solution.
    Response: OSLGCP is keenly aware of the need to deploy available 
technology to meet the immediate threat to the Nation posed by 
terrorist groups. While often less than ideal, these technologies offer 
an immediate enhancement over current capabilities. As such, OSLGCP 
facilitates the deployment of present-day solutions through a variety 
of means. States and key urban areas may procure existing, off-the-
shelf technologies, including interoperable communications and 
information-sharing systems, through both the Homeland Security Grant 
Program (HSGP) and the Urban Areas Security Initiative (UASI).
    To supplement these grant programs, OSLGCP offers a wide variety of 
technical assistance, to states and UASI sites in the identification of 
interoperability needs, design of an enhanced, interoperable 
communications architecture that takes advantage of existing 
technologies such as patching systems, implementation of the enhanced 
architecture, and transition support such as training and exercises. 
OSLGCP is also supporting the Department's RapidCom 9/30 initiative. 
RapidCom 9/30 is intended to provide ten high-risk urban areas with an 
immediate capability for communications interoperability at the 
emergency response level by September 30, 2004. The focus of the focus 
of RapidCom 9/30 is on the deployment of existing technologies to 
provide an immediate, interim solution.
    OSLGCP also administers the SAVER (System Assessment & Validation 
for Emergency Responders) Program to select, assess, and validate 
specific commercial off-the-shelf (COTS) emergency response equipment. 
This program serves the emergency responder community by providing 
rapid, relevant, dependable, and cost-effective assessment and 
validation of critical equipment to enable decision-makers and 
responders to better select, procure, use, and maintain their emergency 
equipment.
    The SAVER program, run through the Texas A&M University, provides 
rapid, timely, and cost-effective assessment and validation of selected 
emergency response equipment items such as personal protective 
equipment, explosive device mitigation and remediation equipment, CBRNE 
search and rescue equipment, physical security enhancement equipment, 
decontamination equipment, and the interoperability of emergency system 
components. Through SAVER, OSLGCP and Texas A&M can also provide 
technical support on the use of equipment to the emergency responder 
community.

    7. Q01717: On January of 1991, I introduced H.R. 237 calling for 
the creation of a comprehensive inventory of resources that are 
available for use or deployment in disaster relief that is easily 
accessible for response to a major disaster or emergency. Are there any 
such inventories of resources available for federal, state, regional 
and local emergency planners? Does the Department of Homeland Security 
intend to create such an inventory or a listing of mutual aid 
agreements with federal, state, local and private entities in the 
future?
    Response: OSLGCP has established and maintains the Pre-Positioned 
Equipment Program (PEP). PEP consists of eleven geographically 
dispersed ``pods'' containing a suite of response equipment designed to 
supplement, replace and/or replenish specialized equipment that might 
be consumed in the response to a terrorist attack by local and state 
emergency personnel. The PEP ``pods'' contain personal protective 
equipment (PPE), detection, decontamination and communications 
equipment. The PEP sites are activated and deployed by DHS using air or 
ground-based means at the request of a state or territorial governor 
or, in the case of the District of Columbia, the mayor of that city. 
OSLGCP is currently in the process of transitioning the PEP program as 
a response asset to the Emergency Preparedness and Response Directorate 
(EP&R), which already maintains a sizable inventory of emergency 
response equipment.
    The Emergency Preparedness and Response Directorate is also 
completing the Federal Response Capability Inventory. State and local 
jurisdictions have inventories of existing capabilities and resources. 
They will be expected to update and compare those inventories to the 
Baseline Capabilities Lists for the appropriate Tier, in order to 
develop their Required Capabilities Lists in Fiscal Year 2005. The 
Baseline Capabilities Lists are being created as part of the National 
Preparedness Goal required by Homeland Security Presidential Directive 
(HSPD)-8. Additionally, DHS, through FEMA and the NIMS Integration 
Center (NIC), is conducting a resource typing project to standardize 
descriptions and characteristics of common response teams and 
equipment. Resource typing ensures accuracy when incident managers are 
requesting or providing resources through mutual aid. For example, a 
``fire department strike team'' will be the same, whether it comes from 
an adjoining city or several states away. To date, resource typing is 
complete for 120 of the most commonly exchanged resources, including 
personnel, teams, and equipment. Resource typing provides the 
foundation for a comprehensive inventory of federal, state, and local 
response assets. A resource ordering, tracking, and status system is an 
essential part of the NIMS. States and local jurisdictions may use 
their FY 2005 SHSGP and UASI funds to develop or update resource 
inventories in accordance with FEMA's resource typing. At the federal 
level, DHS, through FEMA, is developing a federal inventory of response 
resources, based on the resource typing definitions.
    OSLGCP will provide national guidance to the States and Urban Area 
Security Initiative Cities including the Baseline Capabilities Lists, 
organized by Tier, and metrics, after the President reviews and 
approves the National Preparedness Goal.

    8. Q01718: I was disappointed that the President's FY05 Budget 
Request unilaterally, and without any consultation with the fire 
service organizations, limited Assistance to Firefighter Grant Awards 
to only terrorism preparedness, vehicles, equipment and communications 
and Training. This budget leaves out 10 of the 14 permissible uses such 
as EMS, educational programs, recruitment and retention programs, 
certifications, facility improvements and others. In years past, annual 
meetings have been held with all fire service groups to establish 
priorities for grant awards and they generally have agreed with the 
priorities set forth in the President's budget request, however, it 
seems that this process has been bypassed. Will the Office for Domestic 
Preparedness continue to place an emphasis on annual consultations with 
the fire service groups to set priorities for grant awards? Does the 
Department intend to continue the peer review process utilizing peer 
reviewers recommended by the various fire service organizations? In 
addition, is it the intent of your office for terrorism preparedness to 
be the number one priority for Assistance to Firefighters Grants?
    Response: OSLGCP will continue exactly the same cycle of action for 
the implementation of the FY 2005 Assistance to Firefighters Grant 
Program as followed in past years. OSLGCP will encourage the 
participation of the fire service in the program, and values their 
input on funding priorities and the criteria developed to evaluate the 
applications. Consistent with the President's commitment to enhancing 
first responders? terrorism preparedness, the request does reflect an 
emphasis on permissible uses supporting terrorism preparedness. It 
should be noted that the AFG program has previously restricted the 
permissible uses in order to focus limited funds on national 
priorities. OSLGCP recognizes the effectiveness and importance of the 
fire grants as a foundation (especially with respect to equipment and 
training) for the higher-level terrorism preparedness.

Grant Funds for Rail and Port Security and Interoperable Communications
    In fiscal years 2003 and 2004, ODP carved out a portion of the 
Urban Area grants funds to make specific discretionary grants to ports 
and transportation systems. Your FY 2005 budget materials do not 
include enough information for us to understand how, or if, ODP will be 
issuing grants for rail security, and how you will administer the port 
security grant program.
    And, although interoperable communications systems remain a 
critical need for the first responder community, the President's Budget 
requests no funds for grants to enhance interoperability, either in DHS 
or in the Department of Justice COPS program. This budget does not 
support the promises of Secretary Ridge, who has stated that 
implementing interoperable communications systems is a DHS priority, 
and that, ``we all must work together to give them the tools to do 
their jobs--in a way that replaces outdated, outmoded relics with an 
interoperable, innovative and integrated system.''

    1. Do you have plans to carve out any UASI funds for port and/or 
rail and transit security? If so, how much money will you set aside?
    Response: .The President's Fiscal Year (FY) 2005 budget request 
includes $46 million under the Urban Areas Security Initiative program 
to support homeland security exercises at selected ports. Additionally, 
under the UASI program, the President's request sets-aside $200 million 
for targeted infrastructure protection. With these funds, OSLGCP will 
continue to work with the Department of Homeland Security's Information 
Analysis and Infrastructure Protection Directorate (IAIP) to identify 
critical elements of the Nation's infrastructure and then fund the 
protection of these elements. Port facilities and transit systems could 
potentially receive support under the targeted infrastructure 
protection program. Otherwise, the Department has no plans to carve out 
additional UASI set-aside for port or transit security. There is 
insufficient information about the impact of previous grants to warrant 
a stand-alone program. States and local jurisdictions retain the 
ability to allocate a portion of their State Homeland Security Grants 
or UASI funds to port and transit authorities, consistent with the 
relative priorities of each jurisdiction.

    2. If you do plan to carve out some of the Urban Area funds, why 
wasn't this part of the budget request to Congress? Don't you believe 
that Congress should have some say in how much money should be spent 
for these purposes, and how is should be administered?
    Response: The Department fully recognizes the role of Congress, and 
the President's Fiscal Year (FY) 2005 request reflects the 
Administration's priorities for more than $3.5 billion to support 
OSLGCP programs and activities. The request includes funds to continue 
the Homeland Security Grant Program (HSGP), which includes the State 
Homeland Security Program at $1.4 billion; the Law Enforcement 
Terrorism Prevention Program at $500 million; and the Citizen Corps 
Program at $50 million. Funds are also provided for the continuation of 
the Urban Areas Security Initiative (UASI) at $1.4 billion.
    Under both the HSGP program and UASI program, States, localities, 
and urban areas are eligible to use their HSGP and UASI funds to 
purchase physical security enhancement equipment (otherwise known as 
``target hardening'' equipment). Among the allowable expenses under 
this category, which is outlined in the program guidance for both HSGP 
and UASI, are: motion detector systems, barriers, impact resistant 
doors and gates, video and radar systems, and chemical agent and 
explosives detection equipment. All of these types of equipment can be 
used to secure a number of different critical infrastructures, 
including rail systems.
    The Department allows States and localities, under the HSGP 
program, and urban areas, under the UASI program, to make their own 
determinations of how they will distribute their homeland security 
funds. Through the State Homeland Security Assessment and Strategy 
Process, which both States and urban areas must conduct to receive 
their HSGP and UASI funds, respectively, States and urban areas are 
given the necessary tools to determine needs and vulnerabilities and, 
in turn, make informed decisions on the most effective means to use 
their homeland security funds. If they chose, States and urban areas 
can use their funds to target harden rail and transit systems. This is 
a decision, however, that States and urban areas must determine with 
the assistance of OSLGCP and DHS.

    3. What was the process for selecting the recipients of mass 
transit security grant funds under the FY 2004 UASI program? Did DHS 
perform any threat or risk assessments to determine the allocation of 
these funds? Do you have an estimate on total needs for securing rail 
and mass transit systems?
    Response: The recipients for FY 2004 were limited to heavy rail 
(subway) and commuter rail systems. Systems with the highest numbers of 
riders and track miles were identified for funding. Security 
assessments of rail and transit systems operating in high-density urban 
areas were performed by FTA and reviewed by TSA. DHS required that 
information from these assessments be used to determine the eligible 
uses of these grants. The Department has not developed an overall 
estimate for public transit security.

    4. Finally, have you considered setting aside a portion of either 
the State Homeland Security Grant Funds or the Urban Area funds to 
address the critical interoperable communications needs of our public 
safety community?
    Response: The Department of Homeland Security, through OSLGCP, 
administers two programs that provide significant funding levels for 
states and localities to undertake a wide-range of activities, 
including the purchase of communications equipment to improve the 
interoperability of emergency responders. As communications equipment 
is one of the most frequent uses of these funds, the Department does 
not support a new `set-aside' for interoperability at this time. As 
state and local needs vary widely, trying to fix a certain percentage 
or dollar value may distort state and local priorities. Since 2002, ODP 
has provided $1.2 billion in grant assistance to States and local 
jurisdictions to improve interoperability through the purchase of 
communications equipment.
    In Fiscal Year (FY) 2004, OSLGCP is administering the Homeland 
Security Grant Program (HSGP) and the Urban Areas Security Initiative 
(UASI). Under HSGP, OSLGCP will provide more than $2.2 billion to the 
states for equipment acquisition, training, exercise support, and 
planning. Additionally, under UASI, OSLGCP will provide $725 million 
for 50 high-threat, high density urban areas, and 25 transit systems, 
for equipment acquisition, training, exercise support and planning. 
Under HSGP and UASI, states and urban areas can use their funds to 
purchase communications interoperability equipment, and such 
investments for FY04 exceed $800 million. States and urban areas base 
their funding decisions on homeland security strategies that 
incorporate threat, vulnerability, and risk assessments. The 
President's FY 2005 budget request includes more than $1.4 billion for 
continuation of OSLGCP's state formula grants programs, as well as more 
than $1.4 billion for continuation of the UASI program.
    In FY 2003, OSLGCP administered the State Homeland Security Grant 
Program (SHSGP), Part I and II. Under both of these programs states, 
territories, and the District of Columbia (DC) are allowed to use their 
allocated funds to purchase equipment that supports communications 
interoperability. OSLGCP provided significant funds under SHSGP, Part I 
and II. Under Part I, OSLGCP provided $500 million for states, 
territories and DC, to purchase equipment, and support training, 
exercise, and planning activities. Under Part II, OSLGCP provided $1.3 
billion for the same purpose areas. Interoperable communications 
equipment is an allowable use of states' SHSGP funds.
    Additionally, in FY 2003, OSLGCP administered UASI Part I and Part 
II. Under these two programs, OSLGCP provided $800 million for an 
initial 30 high threat, high density urban areas. States and urban 
areas determined how to distribute their funds on comprehensive needs, 
vulnerabilities, threats, and capabilities assessment, and the 
development of a homeland domestic preparedness strategy.
    In an effort to foster improved communications interoperability, 
OSLGCP program guidance for HSGP, UASI, and SHSGP grant recipients 
requires that all radios purchased with OSLGCP funds should be 
compliant with a set a standards called ANSI/IIA/EIA-102 Phase I 
(Project 25). These standards, developed by the Association of Public-
Safety Communications Officials, allow for backward compatibility with 
existing digital and analog systems and provide for interoperability in 
future systems.
    Since its creation in 1998, ODP has provided assistance to all 50 
States, the District of Columbia, the Commonwealth of Puerto Rico, and 
the U.S. territories. Through its programs and initiatives, ODP has 
trained over 575,000 emergency responders from more than 5,000 
jurisdictions and conducted nearly 500 exercises. Since its creation, 
Homeland Security has provided states and localities with over $8.2 
billion in State Homeland Security Grants for the purchase of 
specialized equipment to enhance the capability of state and local 
agencies to prevent and respond to incidents of terrorism involving the 
use of chemical, biological, radiological, nuclear, or explosive 
(CBRNE) weapons; for the protection of critical infrastructure and 
prevention of terrorist incidents; for the development, conduct and 
evaluation of state CBRNE exercises and training programs; and for 
costs associated with updating and implementing each states' Homeland 
Security Strategy. Since 2002, ODP has specifically provided $1.2 
billion in grant assistance to States and local jurisdictions to 
improve interoperability through the purchase of communications 
equipment.

              Questions from the Honorable Christopher Cox

    1. DHS follows a formula set by Congress, which guarantees each 
State 0.75% of the total amount appropriated to DHS for state and 
terrorism preparedness grants. The rest is allocated based on 
population.

    Question: Why did ODP decide to allocate the remaining 60% based 
solely on population, and not based on other risk/threat/vulnerability 
factors?
    Response: In the FY 2004 Homeland Security Grant Program (HSGP), 
OSLGCP used both the USA Patriot Act formula and population numbers 
from the census to establish funding formulas for the 56 states and 
territories. The Administration concurs that a risk/threat/
vulnerability matrix would be ideal. However, as of early FY2004 the 
state-level data was insufficient to rationally allocate over $2 
billion in grant funds. As a result, DHS continued to use population as 
a `proxy' for risk in allocating HSGP funds. In contrast, DHS did have 
adequate data on risks, threats, and vulnerabilities of major urban 
areas, which informed allocation of the Urban Area Security Initiative. 
The President's Budget for FY 2005 proposes allocating these funds 
based on population concentrations, critical infrastructure, and other 
risk factors.

    Question: Are there plans to incorporate factors other than 
population into the formula for the distribution of the non-UASI 
grants?
    Response: OSLGCP is presently working with interagency teams on the 
Homeland Security Presidential Directive 8 (HSPD-8) effort. One of the 
directives within this HSPD states that ``In making allocations of 
Federal preparedness assistance to the States, the Secretary, the 
Attorney General,. . . .and the heads of other Federal departments and 
agencies that provide assistance for first responder preparedness will 
base those allocations on assessments of population concentrations, 
critical infrastructures, and other significant risk factors, 
particularly terrorism threats. . .'' In addition, the President's 
Budget for FY 2005 proposes allocating these funds based on population 
concentrations, critical infrastructure, and other risk factors.

    Question: Why does ODP first allocate funds based on the formula 
and then give additional funds based on population? This gives $2 
million more to the smallest States, above and beyond the percentage 
specified in the Patriot Act.
    Response: In the FY 2004 Homeland Security Grant Program (HSGP), 
OSLGCP used both the USA Patriot Act formula and population numbers 
from the census to establish funding formulas for the 56 states and 
territories. The Administration concurs that a risk/threat/
vulnerability matrix would be ideal. However, as of early FY2004 the 
state-level data was insufficient to rationally allocate over $2 
billion in grant funds. As a result, DHS continued to use population as 
a `proxy' for risk in allocating HSGP funds. In contrast, DHS did have 
adequate data on risks, threats, and vulnerabilities of major urban 
areas, which informed allocation of the Urban Area Security Initiative. 
DHS has been working to improve its state-level data on risks and 
vulnerabilities so that these factors can be incorporated into the FY 
2005 allocation criteria. .

    2. The necessity of establishing preparedness standards was 
identified by the Committee staff report and highlighted both by HSPD-8 
and H.R. 3266. You provided the Committee with milestones to accomplish 
this goal, among others.
    Question: You state that by July 31, 2004, the Secretary shall 
establish a ``Universal List of Mission-Essential Tasks for the 
Homeland Security Community.'' How specific will these be? Will it 
address the Committee's concern that each community know the level of 
preparedness it should attain?
    Response: The Universal Task List (UTL) will define the tasks that 
are essential to the ability to perform homeland security missions, the 
organizations that need to perform them, the condition(s) under which 
they need to be performed (which vary by scenario), and the performance 
standard(s) for the task. As part of its training strategy, DHS/OSLGCP 
developed Emergency Responder Guidelines that identify the essential 
tasks that response agencies must perform to effectively prevent, 
respond to, and recover from a threat or act of terrorism, including 
those involving the use of chemical, biological, radiological, nuclear, 
or explosive (CBRNE) weapons. Performance measures for the essential 
tasks are being developed for use in evaluating performance through 
exercises. This approach is readily adaptable to the range of standard 
scenarios provided by the Homeland Security Council.
    The Universal Task List will then be used to establish Baseline 
Capabilities Lists, which will be tailored by ``tier'' to account for 
differences among jurisdictions based upon population density, critical 
infrastructures, and other significant risk factors. Baseline 
Capabilities Lists, created as part of the National Preparedness Goal 
required by Homeland Security Presidential Directive (HSPD)-8, will 
provide information to communities on the level of preparedness they 
should attain. Baseline Capabilities Lists will not dictate specific 
resource requirements (i.e., how many pieces of equipment to purchase). 
Rather, they will provide a capability standard that enables a 
jurisdiction to consider resource options available internally and 
through mutual aid to meet that requirement. The jurisdiction 
determines how many resources of what type and kind it needs in order 
to meet the standard. This promotes flexibility and will enable DHS to 
compare approaches and identify best practices. Both the Universal Task 
List and the Baseline Capabilities list are integral to the development 
of the National Preparedness Goal, also required by Homeland Security 
Presidential Directive-8.

    You state that by December 31, 2004, the Secretary shall establish, 
``A Complete Federal Response Capabilities Inventory.'' Can you give us 
an update on the progress of this effort? Will DHS also establish an 
inventory at the State and local level?
    Response: DHS, through FEMA and the NIC, is conducting a resource 
typing project to standardize descriptions and characteristics of 
common response teams and equipment. Resource typing ensures accuracy 
when incident managers are requesting or providing resources through 
mutual aid. For example, a ``fire department strike team'' will be the 
same, whether it comes from an adjoining city or several states away. 
To date, resource typing is complete for 120 of the most commonly 
exchanged resources, including personnel, teams, and equipment. 
Resource typing provides the foundation for a comprehensive inventory 
of federal, state, and local response assets. States and local 
jurisdictions may use their FY 2005 SHSGP and UASI funds to develop or 
update resource inventories in accordance with FEMA's resource typing. 
At the federal level, DHS, through FEMA, is developing a federal 
inventory of response resources, based on the resource typing 
definitions. A comprehensive resource ordering, tracking, and status 
system is an essential part of the NIMS. The Department must identify 
or develop a resource management system to store the inventory data 
once its collected. In the future, federal, state, and local resource 
inventories may be linked through a common resource management system 
to facilitate mutual aid and the exchange of resources.
    State and local jurisdictions have inventories of existing 
capabilities and resources. They will be expected to update and compare 
those inventories to the Baseline Capabilities Lists for the 
appropriate Tier, in order to develop their Required Capabilities Lists 
in Fiscal Year 2005. OSLGCP will provide national guidance to the 
States and Urban Area Security Initiative Cities including the Baseline 
Capabilities Lists, organized by Tier, and metrics, after the President 
reviews and approves the National Preparedness Goal. The Baseline 
Capabilities Lists are being created as part of the National 
Preparedness Goal required by Homeland Security Presidential Directive 
(HSPD)-8.

    Question: You state that by September 15, 2004, the Secretary will, 
``Submit National Preparedness Goal to the President, including 
National All-Hazards Preparedness Strategy.'' What type of information 
will be provided by this document? Will the unique needs of terrorism 
preparedness be recognized, in addition to all-hazards preparedness?
    Response: On September 14, 2004, the Secretary approved a National 
Preparedness Goal (or ``Goal''). The Goal was submitted to the 
President through the Homeland Security Council (HSC) for review and 
approval. Based on feedback from the HSC staff, the Department is 
working on revisions to the Goal. Once the revisions are approved, we 
will resubmit the Goal to the President through the HSC.
    The purpose of the Goal is to establish a consistent ``national''--
not Federal--approach to strengthen national preparedness. The Goal 
will define measurable readiness priorities, targets, and metrics for 
the Nation to achieve. Federal, State, local, and tribal entities will 
continue to develop their own readiness priorities, targets, and 
metrics for their respective efforts to support the overarching 
national Goal. Measurable readiness priorities, targets, and metrics 
will help officials at all levels of government to improve strategic 
planning and planning, programming, and budgeting efforts for national 
preparedness.
    The unique needs of terrorism preparedness have been prioritized in 
the context of all-hazards preparedness. For example, prevention and 
deterrence is identified as a national priority, in accordance with the 
National Strategy for Homeland Security, the Homeland Security Act of 
2002, and other strategic documents.

    Question: How has ODP directed resources and planning towards the 
actual implementation of these milestones?
    Response: HSPD-8 identifies 16 major requirements for OSLGCP, other 
DHS components, and other Federal departments and agencies. OSLGCP 
coordinates and monitors progress for the DHS-wide effort as part of 
the Department's Strategic Goals, Objectives, and Milestones process, 
managed by the Deputy Secretary. OSLGCP has established a project 
management team and directed OSLGCP managers, subject matter experts, 
and vendor teams to support the effort. With guidance and support from 
the Secretary and the Homeland Security Council, OSLGCP has established 
a Senior Steering Committee and three Integrated Concept Teams with 
representatives from DHS components, other Federal departments and 
agencies, and State and local governments, in order to collaborate on 
the development of a common stakeholder vision for a national 
preparedness strategy, a process to balance the Federal portfolio of 
preparedness investments, a national training and exercise system, and 
a national preparedness assessment and reporting system. Once 
completed, the National Preparedness strategy and plans produced by the 
Integrated Concept Teams will provide further detail on how OSLGCP 
resources will build towards the implementation of HSPD-8 milestones.

    3. The National Domestic Preparedness Consortium (NDPC) develops 
and provides the bulk of ODP training to first responders, but ODP is 
in the process of developing a new competitive training grant program, 
which will allow different entities to develop and provide training.
    Question: How will ODP coordinate the responsibility for training 
among the NDPC, the new competitive training grant program, and 
training that is developed and administered by state and local 
governments?
    Response: Over the last two years there has been a surge of 
interest in terrorism preparedness training. In recognition of this 
trend, DHS will meet emerging training needs and fill voids in the 
current training curriculum offered by OSLGCP through the NDPC and 
training partners.. The Competitive Training Grants are coordinated to 
complement the OSLGCP Training Strategy. These training needs were 
explicitly addressed in the grant application notification. .
    The selection process of Competitive Grant recipients will be based 
on emerging training needs in the national training program. The state 
and local training courses supported by Homeland Security Grant Program 
funds are processed through the OSLGCP Course Approval Process. This 
process has been developed to ensure all courses follow the OSLGCP 
Training Strategy and meet the basic competencies for each level of 
training defined therein. The demand for training nationally requires 
the inclusion of quality and ``to standard'' training within the states 
and UASI areas.

    Question: Which entity will be responsible for which type of 
training?
    Response: The NDPC will continue to define the standard for the 
training offered by OSLGCP and will focus on the upper levels of 
training, Performance-offensive, and Planning/Management. The 
Competitive Grant Recipients will be held to this same standard for the 
areas of their demonstrated expertise for the courses they submit. The 
states and UASI training is currently focused on the lower two levels 
of competency training, Awareness and Performance-defensive.

    Question: Have you found that States are using an appropriate 
amount of funding for training purposes?
    Response: At this time there is no definitive data on this. 
Currently there is a mix with some states actively involved in training 
and others not so. Although OSLGCP is further addressing the issue, 
OSLGCP believes that states should be devoting a greater proportion of 
their funds to support training. .

    Question: What is the current status of the development of the 
competitive training grant program?
    OSLGCP announced the Fiscal Year 2004 Competitive Training Program 
in the spring of 2004. The application period for proposals began on 
April 30, 2004 and closed on June 1, 2004. Two-hundred and nineteen 
competitive applications have been submitted, and the evaluation and 
review of the application is currently underway. Awards under the 
program are expected to be announced in late August, 2004.

    4. Section 430 of the Homeland Security Act provides ODP with the 
primary responsibility to coordinate training programs at the Federal 
level and to work with state and local governments to prepare for acts 
of terrorism. Moreover, the National Strategy for Homeland Security 
clearly stresses the importance of effective training for first 
responders. Specifically, the Strategy directs the Federal government 
to build a national training and evaluation system.
    Question: Describe for us the progress ODP has made in coordinating 
terrorism preparedness training programs with other Federal departments 
and agencies? If progress has not been made, why? What do you think can 
be done to correct the problem(s)?
    Response: ODP is working to coordinate terrorism preparedness 
training programs through various methods. First, as the executive 
agent for the implementation of Homeland Security Presidential 
Directive 8 (HSPD-8) on national preparedness, ODP has developed an 
initial version of a Universal Task List (UTL) for Homeland Security 
based on the 15 illustrative planning scenarios developed by the 
Homeland Security Council. The UTL is intended to capture what 
essential tasks must be performed along the continuum of prevention 
through response and recovery, not how they must be executed. This 
approach will provide the flexibility Federal, regional, State, and 
local organizations require to effectively execute their homeland 
security missions. Most importantly, the UTL will form the basis, along 
with the National Incident Management System (NIMS), National Response 
Plan (NRP), and National Infrastructure Protection Plan (NIPP) for a 
common language with respect to preparedness training that has not 
previously existed.
    ODP is currently completing the development of a tiered Target 
Capabilities List (TCL) required to perform the mission essential tasks 
listed in the UTL. The TCL will help decisionmakers at all levels 
direct their efforts and resources towards building required 
capabilities and will also provide agencies at all levels a common 
reference for analyzing their ability to perform essential tasks and 
determine needs. A Program Implementation Plan and Requirements (PIPR) 
was developed for the Training, Exercises, and Lessons Learned system 
under HSPD-8 by ODP in conjunction with other Federal departments and 
agencies as well as local stakeholders. This plan identified the need 
to map currently existing and developmental training to UTL tasks in 
order to most effectively determine gaps and overlaps in training. The 
PIPR is not currently being executed due to lack of committed 
resources. As an interim measure, ODP is working through the Federal 
Training Resources and Data Exchange group in order to update the 
Compendium of Federal Terrorism Training and provide linkage to UTL 
items. Truly effective coordination requires that a comprehensive 
solution, such as is outlined in the PIPR, be implemented. Based on 
this solution, when a valid performance need is identified through 
training, exercises or lessons learned, the need will be matched to an 
existing training solution or highlight the requirement for new 
training development.
    The NIC is developing a NIMS National Standard Training Curriculum, 
incorporating DHS and all federal training providers, to ensure that 
there is a comprehensive curriculum to support the NIMS. The NIMS 
National Standard Curriculum is essential to the successful 
implementation of the NIMS at all levels of government, and ensures 
that training support is embraced across the federal government, and 
not only within DHS. The NIC will be meeting with all federal training 
providers in February, including ODP/OSLGCP, to discuss the development 
of a National Standard Curriculum and determine what training programs 
are already available to support the NIMS. OSLGCP grant funding could 
then be used to support the NIMS National Standard Curriculum at the 
State and local levels.

    Question: What role does ODP play in coordinating intra-
Departmental training? Other Directorates, such as the EP&R 
Directorate, conduct training programs. Please describe the 
coordination between ODP and EP&R.
    Response: ODP's role in the coordination of intra-Departmental 
training is largely informal at present. It is important to note that 
unlike most of the other entities within the Department, ODP's training 
audience is external to the Department itself. ODP coordination occurs 
through the DHS Training Leaders Council and its subgroups facilitated 
by the Chief Human Capital Office as well as through a Federal group 
called Training Resources and Data Exchange (TRADE). Established in 
early 2001, the TRADE group is a forum for Federal departments and 
agencies to coordinate information on existing and developmental 
training related to terrorism and weapons of mass destruction. TRADE 
members include the Centers for Disease Control and Prevention, 
Combating Terrorism Technology Support Office Technical Support Working 
Group, Department of Energy, Environmental Protection Agency, Federal 
Bureau of Investigation, Federal Emergency Management Agency (Emergency 
Management Institute and National Fire Academy), Federal Law 
Enforcement Training Center, Health and Human Services Office of Public 
Health Emergency Preparedness, Health Resources and Services 
Administration, Information Analysis/Infrastructure Protection, 
Transportation Security Administration, and USDA Animal Plant Health 
Inspection Service. Since its inception, the Emergency Management 
Institute and National Fire Academy have participated in this group and 
currently more than 30 courses developed by the Federal Emergency 
Management Agency are eligible for the use of ODP formula grant funds 
as reflected in the recently release Fiscal Year 2005 grant guidance.
    Additionally, ODP is working cooperatively with the Emergency 
Management Institute on a web-based revision of an existing exercise 
design and development course. ODP is also working with the Information 
Analysis / Infrastructure Protection directorate to provide a web-based 
pilot capability of its Workforce Antiterrorism Awareness/Prevention 
course. Additionally, ODP is represented on the advisory committee for 
the Federal Law Enforcement Training Center (FLETC) National Center for 
State and Local Law Enforcement Training. Through ODP's sister 
organization, the Office of State and Local Government Coordination, 
there are also staff members assigned for liaison and coordination with 
each directorate not only for training, but for cross-cutting issues. 
Finally, through the implementation process associated with HSPD-8, ODP 
engages in regular coordination with other intra-departmental 
organizations such as the NIMS Integration Center and the Headquarters 
Operational Integration Staff.
    The NIMS Integration Center (NIC) is developing a NIMS National 
Standard Training Curriculum, incorporating DHS and all federal 
training providers, to ensure that there is a comprehensive curriculum 
to support the NIMS. The NIMS National Standard Curriculum is essential 
to the successful implementation of the NIMS at all levels of 
government, and ensures that training support is embraced across the 
federal government, and not only within DHS. The NIC will be meeting 
with all federal training providers in February, including ODP/OSLGCP, 
to discuss the development of a National Standard Curriculum and 
determine what training programs are already available to support the 
NIMS. OSLGCP grant funding could then be used to support the NIMS 
National Standard Curriculum at the State and local levels.

    Question: Describe for us the progress ODP has made in working with 
state and local governments in implementing terrorism preparedness 
training programs.
    Response: The Office for Domestic Preparedness (ODP) in the Office 
of State and Local Government Coordination and Preparedness (SLGCP) 
encourages States, territories, and Urban Areas to use funds to enhance 
the capabilities of State and local emergency preparedness and response 
personnel through development of a State homeland security training 
program. Allowable training-related costs under SLGCP grant programs 
include: 1) establishment of chemical, biological, radiological, 
nuclear, and explosives (CBRNE) terrorism and cyber security training 
programs through existing training academies, universities or junior 
colleges; and 2) overtime and backfill costs associated with attendance 
at SLGCP-sponsored and -approved CBRNE and cyber security training 
courses.
    Homeland Security strategies recently submitted to the Department 
of Homeland Security's (DHS) Office for Domestic Preparedness (ODP) 
indicate that approximately 3.5 million emergency responders require 
chemical, biological, radiological, nuclear and explosive (WMD) weapons 
awareness training. In an effort to meet this identified need while 
supporting state and local efforts to institutionalize WMD awareness 
training, ODP developed a standardized WMD awareness training program 
and began implementation in Fall 2004. The goal of this program is to 
provide states and urban areas with a mechanism for delivery and 
sustainment of WMD awareness training for the ten emergency response 
disciplines included in their strategies: emergency management, 
emergency medical service, fire service, government administrative, 
hazardous materials, health care, law enforcement, public 
communications, public health, and public works. The standardized 
awareness curriculum covers basic awareness level training; prevention 
and deterrence of terrorism; chemical and biological weapons agents; 
radiological and nuclear materials and explosive devices; and response 
actions. The program relies on a Train-the-Trainer approach to maximize 
the program's reach and facilitate ongoing efforts to incorporate 
Standardized WMD Awareness Authorized Trainers (SAAT) into state and 
local training programs. Each State and Urban Area will receive these 
sessions for the cadre of trainers they designate, including a minimum 
of three trainers per discipline. Since the program's implementation in 
the first quarter of Fiscal Year 2005, 563 trainers in 14 Urban Areas 
and 11 States have received training.
    As of December 23, 2004, over 739,000 responders had received ODP 
training through the more than 40 courses in the ODP catalog. 
Recognizing the scope of the training needs at the State and local 
level, ODP is committed to the institutionalization of awareness and 
lower level performance training at those levels. Therefore, ODP is 
focusing its efforts on train-the-trainer programs in these categories. 
Additionally, in Fiscal Year 2005, States and Urban Areas are no longer 
required to request approval for personnel to attend other Federal 
courses related to CBRNE terrorism or non-SLGCP courses that fall 
within the SLGCP mission scope of preparing State and local personnel 
to prevent, respond to, and recover from acts of terrorism involving 
CBRNE weapons. States and Urban Areas are instead required to submit 
information via the training section of the ODP website on this 
training which they are supporting with SLGCP funds. This information 
consists of such information as course title, level of the training, 
the training provider, the date of the course, the number of 
individuals to be trained, and the sponsoring jurisdiction. Keeping in 
mind that Federal funds must be used to supplement--not supplant--
existing funds that have been appropriated for the same purpose, States 
or Urban Areas intending to use SLGCP funds to support attendance at 
non-SLGCP courses must ensure that these courses:
        <bullet> Fall within the SLGCP mission scope to prepare State 
        and local personnel to prevent, respond to, and recover from 
        acts of terrorism involving CBRNE weapons;
        <bullet> Build additional capabilities that 1) meet a specific 
        need identified through the homeland security assessment 
        process, and 2) comport with the State or Urban Area Homeland 
        Security Strategy;
        <bullet> Address the specific tasks articulated in the ODP 
        Emergency Responder Guidelines and the ODP Homeland Security 
        Guidelines for Prevention and Deterrence;
        <bullet> Address the specific tasks and capabilities 
        articulated in the Universal Task List and Target Capabilities 
        List, as they become available;
        <bullet> Comport with all applicable Federal, State, and local 
        certification and regulatory requirements.
    Lastly, in Fiscal Year 2004, ODP conducted the Competitive Training 
Grant Program solicitation in 6 issue areas derived from needs 
identified in State Homeland Security Strategies. The 14 awards that 
were made under this program are under development and ODP is currently 
conducting data analysis of State and Urban Area strategies and 
implementation plans to define criteria for the Fiscal Year 2005 
Competitive Training Grant Program solicitation.

    5. Section 430 of the Homeland Security Act provides ODP with the 
primary responsibility to coordinate exercise programs at the Federal 
level and to work with state and local governments to prepare for acts 
of terrorism.
    Question: Describe for us the progress ODP has made in coordinating 
terrorism preparedness exercise programs with other Federal departments 
and agencies. Have there been specific instances where terrorism 
preparedness exercises have not been coordinated with ODP or with 
DHS?Response: ODP has made significant strides towards coordinating 
terrorism preparedness exercise programs with other Federal departments 
and agencies. Specifically, the Top Officials (TOPOFF) Exercise Series 
has brought together multiple agencies including the FBI, TSA, FEMA, 
and the DOD. This has resulted in the direct improvement of 
communication, deployment of response personnel, and incident command 
management. Also, ODP sponsored the first ever New England Homeland 
Security Exercise Conference in which FEMA and the TSA discussed 
strategic exercise coordination for the entire northeast region.
    In order to better ensure collaboration between federal agencies 
that exercise on a regular basis, ODP has established the National 
Exercise Schedule (NEXS). The impetus of the NEXS was directed in 
Homeland Security Presidential Directive (HSPD)-8, which said, ``All 
Federal departments and agencies that conduct national homeland 
security preparedness-related exercises shall participate in a 
collaborative, interagency process to designate such exercises on a 
consensus basis and create a master exercise calendar''. This calendar 
currently resides with ODP and has all federal level exercises, as well 
as state and local exercises placed in it.
    Frequently, terrorism preparedness exercises occur without the 
coordination of ODP or DHS. However, the level of standardization 
fluctuates among agencies. As a result, goals are often not met, after 
action reports are inaccurate, and improvement plans fail to offer 
realistic solutions to real world challenges. This is one of the 
reasons why ODP has designed the Homeland Security Exercise and 
Evaluation Program (HSEEP). Ultimately, the goal is to eliminate the 
inconsistencies among agency exercises, and set one national standard 
which mandates participants to raise the bar when it comes to 
conducting exercises.

    Question: Describe for us the progress ODP has made in working with 
state and local governments in implementing terrorism preparedness 
exercise programs. If progress has not been made, why? What do you 
think can be done to correct the problem(s)?
    Response: ODP has made significant progress towards working with 
state and local governments in implementing terrorism preparedness 
exercise programs. Specifically, the HSEEP has nationally standardized 
exercise requirements and expectations. Additionally, the Exercise 
division has assigned individual exercise manages to specific states 
which has improved accountability and communication. Recently, ODP 
sponsored the first ever New England Homeland Security Exercise 
Conference. All of the New England States presented their exercise 
plans and discussed strategic exercise coordination for the entire 
northeast region.
    In accordance with (HSPD)-8, ODP has worked with the states to 
write exercise plans which will encompass all of their exercise 
activity over a three year period so they may conduct homeland security 
preparedness-related exercises that reinforce identified training 
standards, provide for evaluation of readiness, and support the 
national preparedness goal. These plans cover the types of exercises 
which will be conducted and synchronize other ODP programs (equipment 
purchases, training) so as to have a maximum effect when conducted. The 
plans assist states to combine exercises from other federal programs 
which the state may be required to conduct. To date, ODP exercises have 
been conducted in maximum collaboration with State and local 
governments and appropriate private sector entities, as prescribed by 
HSPD-8.
    ODP is developing a robust blended learning training program on 
exercise design as well as how to manage an exercise program, based on 
the HSEEP doctrine. This course will be available to all state and 
local governments so they can implement their own exercise program, 
utilizing ODP grant funding. Delivery of this training will be 
conducted in early in calendar year 2005.
    Within calendar year 2005, ODP directly delivered over 170 
exercises to states and locals, as well as collaborating with Canada on 
a series of exercises. These exercises involved some Federal 
departments and agencies, but the primary focus was on State and local 
governments and the private sector, so as to encourage active citizen 
participation and involvement in preparedness efforts, so as to keep in 
line with the direction put forth in HSPD-8.

            Questions from the Honorable Bennie G. Thompson

Performance Measures
    To the Committee's knowledge, there are no studies or metrics that 
determine how much states and localities have improved their 
preparedness for acts of terrorism or what needs remain. A December 31, 
2003, report from the DHS Inspector General (IG) found that, ``DHS 
program managers have yet to develop meaningful performance measures 
necessary to determine whether the grant programs have actually 
enhanced state and local capabilities to respond to terrorist attacks 
and natural disasters.'' An April 2004 report from the IG stated that 
the performance measures that ODP has created, ``. . .do not fully 
address how federal funding has increased preparedness and response 
capabilities.''
        1. If DHS cannot measure the Nation's progress towards closing 
        the security gaps-either as a whole or on a state-by-state 
        basis-then what is the basis for the proposed $697 million 
        reduction in grant funds to be distributed by the Office of 
        Domestic Preparedness in FY 2005? No Response has been 
        Recieved.
        2. Can you provide details on your progress to date in building 
        the terrorism preparedness capabilities of states and 
        localities, how are you measuring this progress, and what is 
        your timeline for building a ``baseline'' level of preparedness 
        capabilities nationwide? No Response has been Recieved.

Guidelines for Equipment. Training. and Exercises
    The April IG report also noted that first responders do not have 
clear federal guidelines for equipment, training, and exercises, making 
it difficult to determine their highest priority needs and to decide 
how best to spend grant funds. State officials and first responders 
believed that the development of federal guidelines for first 
responders should be accelerated.
        1. What is ODP doing to accelerate the development of 
        guidelines or standards for equipment, training and exercises? 
        No Response has been Recieved. Who in DHS has the lead on 
        developing such guidelines? No Response has been Recieved. When 
        can we expect such guidelines to be completed and made 
        available to state and local entities? No Response has been 
        Recieved.
        2. As you are aware, this Committee has passed legislation that 
        would require DHS to develop equipment and training standards 
        for your grant program within a relatively short period of 
        time. Do you support this legislation, and if not, what 
        alternative do you propose to address this shortcoming in the 
        grant program? No Response has been Recieved.

FIRE Grants
    The FIRE Grant program was created by Congress in order to meet 
basic, critical needs of the fire fighting community--including fire 
engines, portable radios, protective clothing, and breathing 
apparatus--which a December 2002 study by the U.S. Fire Administration 
and the National Fire Protection Association found to be significant. 
The Administration proposing to reduce funding for this program from 
$750 million to $500 million, and is also proposing to shift the focus 
of this program to terrorism preparedness.
    In addition, the Administration's proposal for the fire grant 
program limits the use of grant funds to only four (4) of the fourteen 
authorized uses. This proposal would have a serious impact on 
prevention programs benefiting both at-risk populations and programs 
designed to improve the health and safety of our firefighters. Further, 
in a report on the FIRE Grant program, the DHS Inspector General 
indicated that a greater emphasis should be placed on funding fire 
prevention activities.
        1. Why did the Administration unilaterally decide to request a 
        limit on the use of FIRE grant funds through legislative 
        language, rather than selecting specific grant categories for 
        FY 2005 after consultation with national fire organizations, as 
        has normally been the case? No Response has been Recieved. Even 
        if most past FIRE grants were awarded in these four categories, 
        why are you seeking to limit the flexibility of local fire 
        departments? No Response has been Recieved.
        2. How does DHS intend to address the shortcomings in fire 
        prevention activities identified by the Inspector General, if 
        funds are not authorized for this purpose? No Response has been 
        Recieved.

Urban Area Security Initiative
    Although the President's request increases the amount of 
discretionary grant funds to be distributed based on threats and 
vulnerabilities under the Urban Area Security Initiative, you have yet 
to provide Congressional appropriators and authorizers with a detailed 
explanation of the intelligence information that you are using to 
determine which cities receive these grants, despite the fact that we 
have requested this information. In addition, it still is not at all 
clear how the Department intends to measure progress in building our 
preparedness capabilities nationwide, especially when you are reducing 
funds for the State Homeland Security Grant program by almost $1 
billion.
        1. When can we expect the Department to provide this Committee 
        with detailed information that supports your selection of 
        specific cities to receive funds under the Urban Area Security 
        Initiative (UASI)? No Response has been Recieved.
        2. If your proposal is approved, how many cities do you expect 
        to receive UASI funds in FY 2005? No Response has been 
        Recieved.
        3. In years past, ODP has carved out a portion of UASI funds 
        for specific discretionary grant funds to ports and 
        transportation systems. Do you have plans to carve out any UASI 
        funds for these purposes, and if so, how much money will you 
        set aside? No Response has been Recieved. Why wasn't this part 
        of the budget request to Congress? No Response has been 
        Recieved.
        4. Given the recent events in Spain, what was the process for 
        selecting the recipients of mass transit security grant funds 
        under the FY 2004 UASI program? No Response has been Recieved. 
        Did DHS perform any threat or risk assessments to determine the 
        allocation of these funds? No Response has been Recieved. Do 
        you have an estimate on total needs for securing rail and mass 
        transit systems? No Response has been Recieved.

        Pipeline Issues
    Secretary Ridge has claimed that since September 11, 2001, billions 
of dollars that have been allocated by the federal government have not 
yet reached the intended grantees at the local level. On March 15,2004, 
Secretary Ridge created a task force, chaired by Massachusetts Governor 
Mitt Romney, to recommend ways to improve the efficiency and 
accountability of the ``pipeline'' between DHS and state and local 
grant recipients. Most DHS grants for first responders include 
timelines that require States to pass through a set percentage (often 
80%) of funds to the local level in a specified period (often 60 days).
        1. Secretary Ridge and several other senior Department 
        officials have stated that there are billions of dollars stuck 
        in the pipeline, neither in DHS accounts or received at the 
        local level. Why doesn't ODP have the tools in place to know 
        exactly where every dime is? No Response has been Recieved. 
        Will those tools be in place to track the FY 2005 grants? No 
        Response has been Recieved.
        2. States have to submit a state plan and an application, both 
        of which are subject to DHS review, before receiving DHS grant 
        funds. I assume that the plan and application say something 
        about how the grant funds will be used. If this is the case, 
        why do DHS grants work by reimbursement, rather than allocating 
        funds? No Response has been Recieved. Doesn't this slow the 
        process down? No Response has been Recieved.

Emergency Management Performance Grant Program
    The President's budget proposal significantly impacts the Emergency 
Management Performance Grant program; only 25% of grant funds will be 
available to support State and local emergency management personnel 
salaries. At present, up to 100% of these grant funds can be used for 
personnel salaries, if required. A March 2002 survey by the National 
Emergency Management Association found that an additional 5,212 local 
emergency management positions are needed with 3,960 (or 76 percent) of 
those positions being fulltime directors needed to manage the programs.
        1. Under Secretary Brown and others have informed this 
        Committee that the limitation on the use of EMPG grant funds 
        for personnel costs will result in increased state and local 
        training and exercises. However, without sufficient, 
        experienced emergency management personnel, how will states and 
        localities be able to participate in additional training and 
        exercise activities? No Response has been Recieved.
        2. The organizations representing state and local emergency 
        managers have told us that in light of current budget troubles 
        in most states, the proposed 25% cap would lead to a drastic 
        reduction in the numbers of emergency managers. Given the vital 
        role these managers play, why does the Department want to put 
        them out of work? No Response has been Recieved.

Interoperable Communications
    Although interoperable communications systems remain a critical 
need for the first responder community, the President's Budget requests 
no funds for grants to enhance interoperability, either in DHS or in 
the Department of Justice COPS program. This budget does not support 
the promises of Secretary Ridge, who has stated that implementing 
interoperable communications systems is a DHS priority, and that, ``we 
all must work together to give them the tools to do their jobs--in a 
way that replaces outdated, outmoded relics with an interoperable, 
innovative and integrated system.''
        1. Why hasn't DHS created a separate grant program to meet this 
        critical need? No Response has been Recieved.
        2. What percentage of ODP First Responder grant funds are being 
        used for interoperable communications, and what guidance are 
        you providing to grant recipients regarding what systems to 
        purchase? No Response has been Recieved. Do you allow funds to 
        be used for patching and connect or technologies that make use 
        of existing communications infrastructures? No Response has 
        been Recieved.
        3. There appears to be some duplication as to what 
        organizations in DHS are responsible for developing, 
        publishing, and updating standards and guidance for 
        interoperable communications systems. How are such standards 
        integrated into your grant programs? No Response has been 
        Recieved. If ODP is responsible for these standards, what is 
        the role of the Science and Technology Directorate and Project 
        SAFECOM? No Response has been Recieved.

National Preparedness Goal. HSPD-8
    A December 2003 Presidential Directive (HSPD-8) requires the 
Secretary of DHS to develop a national domestic all-hazards 
preparedness goal that will be included in the Secretary's FY 2006 
budget request to the Office of Managent and Budget.
        1. How do you intend to develop this goal, and what committees 
        or task forces have you created to begin work on this important 
        project? No Response has been Recieved. What organization 
        within DHS is taking the lead on developing this goal? No 
        Response has been Recieved. What other Federal agencies are 
        involved in this process? No Response has been Recieved.
        2. How will state and local governments be involved in the 
        development of this goal? No Response has been Recieved. Unlike 
        the process for developing the National Response Plan, I hope 
        DHS has included state and local representatives in initial 
        discussions and meetings, and that the process is open to other 
        interested parties, such as national standards development 
        organizations.
        3. How will this goal be integrated into both your current 
        grant programs and your future budget requests? No Response has 
        been Recieved.
        4. When do you expect to be completed with this goal, and will 
        you share your findings with this Committee? No Response has 
        been Recieved.

State and Local Training
    For FY 2005, the Administration proposes $91.9 million for the 
State and local training program, a $103 million reduction from FY 2004 
levels. Traditionally, National Domestic Preparedness Consortium member 
institutions--who conduct most of ODP's training programs--have paid 
the travel costs of state and local personnel attending training at 
their respective facilities. For FY 2005, the Administration intends to 
require state and local governments to pay these travel costs out of 
State Homeland Security grant funds, and therefore has reduced NDPC 
funding.
        1. Doesn't the Administration's proposal create a disincentive 
        for increased participation in training, as state and local 
        governments would be forced to utilize limited State Homeland 
        Security grant funds for travel costs, rather than using the 
        funds for planning, equipment, or exercises? No Response has 
        been Recieved.
        2. Doesn't this budget request propose cuts to the training 
        program to shift funding for travel to the State Homeland 
        Security Grant Program, and at the same time, cut that State 
        grant program? No Response has been Recieved.

                                 <all>

</pre></body></html>
